<html>
<title> - DOI SPENDING AND THE PRESIDENT'S FISCAL YEAR 2012 BUDGET PROPOSAL</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                         DOI SPENDING AND THE 
                        PRESIDENT'S FISCAL YEAR 
                         2012 BUDGET PROPOSAL 

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, March 3, 2011

                               __________

                            Serial No. 112-5

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
         Committee address: http://resourcescommittee.house.gov


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

64-957 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      Donna M. Christensen, VI
Scott R. Tipton, CO                  John P. Sarbanes, MD
Paul A. Gosar, AZ                    Betty Sutton, OH
Raul R. Labrador, ID                 Niki Tsongas, MA
Kristi L. Noem, SD                   Pedro R. Pierluisi, PR
Steve Southerland II, FL             John Garamendi, CA
Bill Flores, TX                      Colleen W. Hanabusa, HI
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                   Rick Healy, Democrat Chief Counsel
                                 ------                                




























                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, March 3, 2011..........................     1

Statement of Members:
    Benishek, Hon. Dan, a Representative in Congress from the 
      State of Michigan, Prepared statement of...................    67
    Flores, Hon. Bill, a Representative in Congress from the 
      State of Texas, Prepared statement of......................    67
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     1
        Prepared statement of....................................     3
    Markey, Hon. Edward J., a Representative in Congress from the 
      State of Massachusetts.....................................     4
        Prepared statement of....................................     5
    Tipton, Hon. Scott R., a Representative in Congress from the 
      State of Colorado, Prepared statement of...................    68

Statement of Witnesses:
    Salazar, Hon. Ken, Secretary, U.S. Department of the Interior     6
        Prepared statement of....................................     9

                                     



OVERSIGHT HEARING TITLED ``DEPARTMENT OF THE INTERIOR SPENDING AND THE 
            PRESIDENT'S FISCAL YEAR 2012 BUDGET PROPOSAL.''

                              ----------                              


                        Thursday, March 3, 2011

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:00 a.m. in Room 
1324, Longworth House Office Building, Hon. Doc Hastings 
[Chairman of the Committee] presiding.
    Present: Representatives Hastings, Duncan of Tennessee, 
Bishop, Lamborn, Wittman, Broun, Fleming, Coffman, McClintock, 
Thompson, Denham, Benishek, Rivera, Duncan of South Carolina, 
Tipton, Gosar, Labrador, Noem, Southerland, Flores, Landry, 
Fleischmann, Runyan, Johnson, Markey, Kildee, DeFazio, 
Faleomavaega, Napolitano, Holt, Grijalva, Costa, Sablan, 
Heinrich, Lujan, Christensen, Sarbanes, Sutton, Tsongas, 
Garamendi, and Hanabusa.

 STATEMENT OF HON. DOC HASTINGS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    The Chairman. The Committee will come to order. The Chair 
notes the presence of a quorum. The Committee on Natural 
Resources is meeting today to hear testimony on the Department 
of the Interior Spending and the President's Fiscal Year 2012 
Budget Proposal. Under Committee Rule 4[f], opening statements 
are limited to the Chairman and the Ranking Member of the 
Committee so that we can hear from our witnesses, or hear as 
long as we can from our witnesses; however, I ask unanimous 
consent to include any Member that would like to have an 
opening statement in the record. Without objection, so ordered. 
Let us get started right away. The Chair wants to mention, the 
Secretary has been generous with his time. He is going to be 
with us until 1:00 and we want to utilize all the time that we 
possibly can, so I am going to be very, very strict on the 
five-minute rule and I will advise you of that, and when we get 
close, we all know how the lights work, and so I just want to 
remind people we are going to be as strict as we possibly can.
    Thank you, Secretary Salazar, for being here today. While 
the Committee did not, unfortunately, get a chance to hear from 
you on the last two of President Obama's budgets, we are very 
pleased for you to be here today when there is certainly a need 
to control Federal spending. The purpose of today's hearing is 
to examine the spending programs of the Department of the 
Interior and the President's proposed Fiscal Year 2012 budget. 
As everyone is aware, our country is currently facing a $14 
trillion debt. This debt is threatening our economy, our 
nation's ability to remain competitive and the future security 
of our children and our grandchildren. It is long past time to 
get serious about cutting spending and addressing this debt 
head on. This requires setting priorities and making tough 
choices on how best to direct scarce taxpayer dollars.
    When it comes to highlighting spending, the taxpayers 
simply cannot afford it. I must bring attention, Mr. Secretary, 
to the $900 million in the President's budget request for the 
Land and Water Conservation Fund which is primarily used to 
purchase Federal land. This represents a $553 million increase 
over the 2008 levels. I say this because the Department of the 
Interior has a maintenance backlog on public lands that is in 
the billions of dollars. I believe the government has the 
responsibility to maintain and care for existing lands before 
spending money that we don't have on more, and more and more 
land. In addition to spending, we will examine how several 
Interior Department policies are directly costing American 
jobs.
    This includes the regulatory drought in California to the 
San Joaquin Valley where the government has withheld valuable 
water from communities, prioritizing the needs of a three-inch 
fish over thousands of American workers and their families, and 
the Department's Office of Surface Mining Reclamation and 
Enforcement's pursuit of sweeping changes to stream regulations 
that, by their own admission, will cost thousands of Americans' 
jobs. Finally, no discussion about jobs is complete without 
mentioning the President's de facto moratorium on the Gulf of 
Mexico that has left thousands of workers without jobs. 
Gasoline prices have risen nearly 20 cents last week. Higher 
gasoline prices not only mean increased costs at the pump, but 
families must pay more for groceries, and farmers' and small 
businesses' costs will go up.
    Higher gasoline prices have a substantial impact on every 
American and every part of our fragile economy, but instead of 
focusing on ways to produce our own American energy, this 
Administration is deepening America's dependence on unstable 
and hostile foreign countries. The de facto drilling moratorium 
in the Gulf is simply the latest example of this. The official 
moratorium on deepwater drilling was lifted over four months 
ago, yet the Administration just this week, and I am glad they 
did, issued their first permit. The people of the Gulf need 
more than just one token permit. One permit will not put 
thousands of workers back to work. I also hope to hear further 
details on today's $358 million budget request for the Bureau 
of Ocean Energy and Management, Regulation and Enforcement. 
This is a $119 million increase above the Fiscal Year 2010 
levels.
    We all share the desire to make offshore drilling safe, but 
we need to make certain that this money will be used to 
actually improve and resume offshore drilling. I believe we can 
agree that bigger government does not equate into better 
government. The goal should be to make this agency better and 
faster, not bigger and slower. In light of the current fiscal 
crisis, it is important to remember that American energy 
production offshore and on public lands generates billions of 
dollars of revenue to the government. Not only do we create 
jobs by producing energy, but we help lower the debt and our 
deficit and our dependence on foreign countries. So I just have 
to simply say in closing, Mr. Secretary, that your budget has a 
$60 billion tax increase on American energy, and I do not 
believe that is what Americans need at this point and we would 
like to pursue that with you also. So, with that, I will yield 
back what time I do not have and I will recognize the Ranking 
Member for his opening statement.
    [The prepared statement of Chairman Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
                     Committee on Natural Resources

    Thank you Secretary Salazar for being here today. While the 
Committee didn't get a chance to hear from you on President Obama's 
last two budgets, we're pleased to have you here this year at a time 
when there is a great need to control spending.
    The purpose of today's hearing is to examine the spending and 
programs of the Department of the Interior and the President's proposed 
Fiscal Year 2012 budget. As everyone is aware, our country is currently 
facing a $14 trillion debt. This debt is threatening our economy, our 
nation's ability to remain competitive, and the future security of our 
children and grandchildren. It's long past time to get serious about 
cutting spending and addressing this debt head-on. That will require 
setting priorities and making tough choices on how best to direct 
scarce taxpayer dollars.
    When it comes to highlighting spending that taxpayers simply cannot 
afford, I must bring attention to the $900 million in the President's 
budget for the Land and Water Conservation Fund, which is primarily 
used to purchase more federal land. This represents a $553 million 
increase above Fiscal Year 2008 levels.
    The Department of the Interior has a maintenance backlog on public 
lands that measures in the billions of dollars.
    I believe the government has a responsibility to maintain and care 
for our existing lands before spending money we don't have to acquire 
more and more and more land.
    In addition to spending, we will also examine how several Interior 
Department policies are directly costing American jobs.
    This includes the regulatory drought in California's San Joaquin 
Valley where the government has withheld valuable water from 
communities, prioritizing the needs of a three-inch fish over thousands 
of workers and their families.
    And the Department's Office of Surface Mining Reclamation and 
Enforcement's pursuit of sweeping changes to stream regulations that by 
their own admission will cost thousands of American jobs.
    Finally, no discussion about jobs is complete without mentioning 
the President's de facto drilling moratorium in the Gulf of Mexico that 
has left thousands of Americans out of work.
    Gasoline prices have risen 20 cents in the last week. Higher 
gasoline prices not only mean increased costs at the pump, but that 
families will pay more for groceries, farmers will pay more for farm, 
and small businesses will pay more to operate. Higher gasoline prices 
have a substantial impact on every American and every aspect of our 
already fragile economy.
    But instead of focusing on ways to produce our own American energy, 
the Administration is deepening America's dependence on unstable, 
hostile foreign countries.
    The de facto drilling moratorium in the Gulf is simply the latest 
example of the Administration blocking access to our nation's energy 
resources.
    The official moratorium on deepwater drilling was lifted over four 
months ago, yet the Administration just this week issued the first 
permit. The people in the Gulf need more than just one token permit. 
One permit will not put thousands of people back to work. We need to 
see real progress and the immediate issuance of additional permits.
    I also hope to hear further details today on the $358.4 million 
budget request for the Bureau of Ocean Energy Management, Regulation 
and Enforcement. This is $119.3 million above Fiscal Year 2010 levels. 
We all share the goal of wanting to make U.S. offshore drilling the 
safest in the world, and I don't doubt that additional funds will be 
needed to hire more inspectors. But we need to make certain that this 
money will be used to actually improve safety and resume offshore 
drilling.
    I believe most of us can agree that bigger government does not 
generally equate to better government. This Committee is specifically 
interested in how increased funding and staffing will improve the 
process and foster increased American energy production. The goal 
should be take make this agency better and faster, not bigger and 
slower.
    In light of the current fiscal crisis, it's important to remember 
that American energy production offshore and on public lands generates 
billions of dollars in revenue. Not only do we create jobs by producing 
energy in the U.S., but we help lower the debt and deficit, and we 
prevent our energy dollars from being sent overseas to foreign 
countries.
    But instead of increasing production and thereby reducing the 
deficit, the Administration has proposed to increase the cost of 
producing American energy by raising a multitude of taxes. The 
President's budget includes over $60 billion in higher taxes and fees 
on American energy production. This will lead to less energy, higher 
costs and fewer American jobs.
    If you increase the cost of producing gasoline, you raise the price 
of gasoline at the pump. The last thing families and businesses need 
right now is for gasoline prices to climb even higher.
    These are just a few of the issues I hope to further discuss at 
today's hearing and I look forward to hearing from the Secretary.
                                 ______
                                 

 STATEMENT OF HON. EDWARD MARKEY, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman, very much, and thank 
you, Mr. Secretary, for being here. I am struck by two facts 
from your testimony, Mr. Secretary. First, Interior reports 
that the programs and activities of the Department support more 
than 1.3 million jobs and $370 million in economic activity 
annually. Second, Interior is unique in that the Department 
generates more revenue for the U.S. Treasury than its annual 
appropriation. While our Federal deficit is in the red, your 
Department is in the black. Given these tough economic times 
and the enormous profits made by using public resources, I 
welcome your proposal that the oil and gas industry should pay 
a larger share of the government's costs for inspections and 
permits following years of lax oversight. Even, I think, the 
Members in the majority recognized in their spending bill that 
more money should be diverted to robust inspections.
    Some have criticized the slow pace of oil and gas leasing. 
Of course, what the critics fail to mention is that oil 
production last year on Federal lands was higher than in the 
last year of the Bush Administration, and they do not disclose 
that oil companies are not even producing on many of the leases 
that they currently hold. While 80 million acres are presently 
under lease, the oil and gas industry is only producing on 
about 19.5 million of those acres. Last year the Bureau of Land 
Management issued 4,090 permits to drill but operations began 
on only 1,480 of those permits. It is as if the oil and gas 
industry first asked for dessert, then ate one-fourth of their 
dinner, and then complained to the manager about the service. 
On top of that, they want to stiff you on the tip.
    These charges are especially absurd considering this week 
that the Interior Department approved the deepwater drilling 
permit in the Gulf of Mexico. The permitted company was the 
first to demonstrate that it had the resources and capability 
to respond to an accident as part of their drilling request. 
For those who say that this post-bill process has been 
political, I think the irony of BP holding the largest stake in 
the well for the permit you approved left everyone that was 
questioning you on the question of whether or not you were 
being political, that instead you have played it very straight, 
and BP won that first lease. Mr. Secretary, I particularly 
appreciate your commitment to renewable energy. When you took 
office, there had been little effort in this area. Now you have 
a goal of permitting 10,000 megawatts by 2012.
    These efforts recognize that we can't just drill our way 
out of our dependence on foreign oil. We need to develop clean 
energy alternatives that create American jobs. The United 
States uses 25 percent of the world's oil, yet we have just two 
percent of the world's oil reserves. The world price is set by 
OPEC and increases in oil production in the United States over 
the last five years still cannot impact the price of oil. On 
climate change and endangered species, there are those who 
prefer to deny reality and ignore the warning signs of melting 
polar ice, crop killing droughts and deadly floods, but I am 
glad to see that Interior attempts to deal with climate change 
before our iconic species become but a memory. Mr. Secretary, I 
also welcome your proposal for full funding of the Land and 
Water Conservation Fund. This fund is based on the simple 
premise that as we deplete one resource, we should preserve 
other natural resources. We thank you for your leadership and 
visionary stewardship of the agency since you have been sworn 
in. We welcome you here today.
    [The prepared statement of Mr. Markey follows:]

     Statement of The Honorable Edward J. Markey, Ranking Member, 
                     Committee on Natural Resources

    Mr. Secretary, I appreciate your presence here today.
    I am struck by two facts from your testimony. First, Interior 
reports that the programs and activities of the Department support more 
than 1.3 million jobs and $370 million in economic activity annually. 
Second, Interior is unique in that the Department generates more 
revenue for the U.S. Treasury than its annual appropriation. While our 
federal deficit is in the red, your Department is in the black.
    Given these tough economic times and the enormous profits made by 
using public resources, I welcome your proposal that the oil and gas 
industry should pay a larger share of the government's costs for 
inspections and permits following years of lax oversight. Even my 
Republican friends recognized in their spending bill that more money 
should be diverted to robust inspections.
    Some have criticized the slow pace of oil and gas leasing. Of 
course, what the critics fail to mention is that oil production last 
year on federal lands was higher than in the last year of the Bush 
Administration. And they won't disclose that oil companies are not even 
producing on many of the leases they currently hold. While 80 million 
acres are presently under lease, the oil and gas industry is only 
producing on 19.5 million of those acres. Last year, the Bureau of Land 
Management issued 4,090 permits to drill, but operations began on only 
1,480 of those permits.
    It's as if the oil and gas industry first asked for dessert, then 
ate 1/4th of their dinner, and then complained to the manager about the 
service. On top of that, they want to stiff you on the tip.
    These charges are especially absurd considering that this week the 
Interior Department approved a deepwater drilling permit in the Gulf of 
Mexico. The permitted company was the first to demonstrate that it had 
the resources and capability to respond to an accident as part of their 
drilling request.
    And for those who say this post-spill process has been political, I 
think the irony of BP holding the largest stake in the well for the 
permit you approved tells everyone you are not playing politics, you 
are playing it straight.
    Mr. Secretary, I particularly appreciate your commitment to 
renewable energy. When you took office there had been little effort in 
this area. Now, you have a goal of permitting 10,000 megawatts by 2012.
    These efforts recognize that we can't just drill our way out of our 
dependence on foreign oil. We need to develop clean energy alternatives 
that create American jobs.
    The United States uses 25 percent of the world's oil, yet we have 
just 2 percent of the world's reserves. The world price is still set by 
OPEC. And increases in oil production in the United States over the 
past five years have done nothing to reduce the price of oil.
    On climate change and endangered species there are those who prefer 
to stick their head in the sand and ignore the warning signs of melting 
polar ice, crop-killing droughts and deadly floods. I am glad to see 
Interior attempt to deal with climate change before our iconic species 
become but a memory.
    Mr. Secretary, I also welcome your proposal for full funding of the 
Land and Water Conservation Fund. This fund is based on the simple 
premise that as we deplete one resource, we should preserve other 
natural resources.
    Mr. Secretary, I thank you again for your presence here today and I 
look forward to your testimony.
                                 ______
                                 
    The Chairman. I thank the Ranking Member, and I thank very 
much his looking at the time, like I did not, so I thank him 
for that. We are now ready to hear from our only witness today, 
The Honorable Ken Salazar, the Secretary of the Interior. Mr. 
Secretary, thank you very much for being here. I would just 
remind you, like all witnesses, your written statement will 
appear in the record. I would like you to obviously observe 
that five-minute timeframe as much as you possibly can. The 
clerk will start the timer, and, as you know, the green light 
goes for four minutes, yellow light for one and the red light, 
your time is up. If you could adhere to that, I would certainly 
appreciate that. So, Mr. Secretary, thank you very, very much 
for being here, and you may begin.

 STATEMENT OF HON. KEN SALAZAR, SECRETARY, U.S. DEPARTMENT OF 
   THE INTERIOR; ACCOMPANIED BY HON. DAVID J. HAYES, DEPUTY 
SECRETARY, U.S. DEPARTMENT OF THE INTERIOR; AND PAMELA K. HAZE, 
 DEPUTY ASSISTANT SECRETARY, BUDGET, FINANCE, PERFORMANCE, AND 
          ACQUISITION, U.S. DEPARTMENT OF THE INTERIOR

    Secretary Salazar. Thank you very much, Chairman Hastings 
and Ranking Member Markey and the distinguished members of this 
Committee. It is an honor and a privilege to serve this nation 
and to serve all of you as the Secretary of the Interior and to 
be part of President Obama's cabinet. With me today is David 
Hayes who is the Deputy Secretary of the Interior and Pam Haze 
who is a Budget Director at Interior so that they are available 
to answer questions as well. Let me start by saying that the 
mission of the Department of the Interior is a mission which is 
extraordinarily important to each and every one of you and to 
this nation. It is a mission which makes the Secretary of the 
Interior the custodian of America's natural resources and the 
custodian of America's history. It is a mission which I very 
much enjoy working on.
    For those of you who are not as familiar as others with the 
Department of the Interior, we manage 20 percent of the land 
mass of the United States of America, 553 national wildlife 
refuges and almost 400 national parks throughout the United 
States of America. We also manage 1.75 million acres of the 
Outer Continental Shelf where much of our oil and gas 
production takes place and have important responsibilities, 
trust responsibilities, for the Native Americans and the 
reservations in our country. As we see the Department of the 
Interior, and I think both the Chairman and the Ranking Member 
got it right where they talked about some of the work that we 
do in terms of job production, we see our efforts at the 
Department of the Interior as being an economic generator for 
our economy, and certainly the numbers that we have in terms of 
the creation of millions of jobs from the outdoor industry, as 
well as from energy production is something that we are very 
proud of.
    The budget that the President presented to the Congress for 
2012 is a freeze budget. It is a budget that cuts $1.1 billion, 
I think, in these times of fiscal austerity, and where everyone 
in the country is saying that we need to be fiscally tough, it 
is a budget that represents some tough choices. We have cut 
$1.1 billion, including looking at administrative savings which 
are important, such as travel, where we are cutting $42 million 
from the budget, information technology $36 million, 
procurement reform efforts that we have undertaken to make 
government work better where we are saving $53 million, so 
overall, cuts of $1.1 billion that are accounted for in the 
budget that we have presented in front of you.
    I want to briefly spend some time speaking about energy, 
both conventional and renewable, because I know that is 
important to the members of this Committee, the conservation 
work, which includes the Land and Water Conversation Fund which 
you raised in your opening statements, a brief comment about 
water, and finally, a comment about youth and the efforts that 
we have underway. First, with respect to energy, we recognize 
the role that we play at the Department of the Interior in 
terms of powering our economy through the energy that is 
produced in America, and that is both conventional as well as 
renewable energy. Our goal is simply to have a robust oil and 
gas program for the United States in both America's oceans and 
on America's lands. With respect to our goal in terms of having 
that kind of program underway, we need to keep in mind the 
protection of people and the protection of the environment.
    Certainly for some it may seem like a distant memory, for 
others it is not, and that is the blowup of the Macondo well 
and the Deepwater Horizon last year on April 20 should remind 
us all that that was an area where over 30 years of neglect 
resulted in the kind of catastrophe that poured nearly five 
million barrels of oil out into the ocean in the Gulf of 
Mexico, and so how we move forward with safe production that 
protects people and the environment is of the highest order, 
and that is why in front of you there is a request to beef up 
significantly the funding that is available for the Bureau of 
Ocean Energy Management and Regulation. That money will go into 
inspections and to improve permitting and a number of other 
things that will help us get the job done.
    With respect to onshore oil and gas production, we continue 
to lease oil and gas throughout the United States on BLM lands 
and lands that we manage on behalf of the Forest Service as 
well and have issued over 5,000 permits in 2010. We will issue 
about 7,000 permits in 2011 and have a robust program to move 
forward with conventional energy. On the renewable energy side, 
to Ranking Member Markey's point on renewable energy, I am 
proud of the fact that the Department of the Interior over the 
last two years has permitted over 3,700 megawatts of renewable 
energy. It is a huge amount of energy which includes the 
largest solar scale facilities in the world, as well as 
capturing the power of the wind, and geothermal and other 
renewable energies in places like Congressman Bishop's 
district, in Milford, Utah, where I have been on different 
occasions to look at some of the renewable energy efforts that 
are underway in Utah, especially there, in Milford, Utah.
    We expect in the 2012 budget that on the renewable energy 
front we will be able to get to a level of 10,000 megawatts of 
power from renewable energy. On conservation, just to make a 
few points on conservation and what is included in the budget, 
again, I think it is important for all of us, especially those 
from the West, to recognize the importance of what tourism and 
job creation occurs when we have places, such as my Colorado 
colleagues here know, from Rocky Mountain National Park and so 
many of the other places there, or whether it is in places like 
the Everglades where you have a huge number of people who 
actually come to our states because of the great tourism 
opportunities that are there. Your state, Chairman Hastings, is 
no exception to that, where we see ourselves as being a huge 
economic generator because of the fact that people come there 
to hunt, and fish, and bike, and hike and enjoy the outdoors of 
your great state.
    Indeed, the Outdoor Recreation Industry Foundation 
estimates that there are 6.5 million jobs that are created 
every year through these outdoor activities that occur here in 
our country. Mr. Chairman, I know my time is up, but I would 
respectfully request two more minutes to finish my statement.
    The Chairman. Go right ahead, Mr. Secretary.
    Secretary Salazar. Thank you, Mr. Chairman. So as we move 
forward with the America's Great Outdoors Initiative which the 
President announced, it is an effort to keep alive the 
conservation legacy which was started by a great Republican 
President, Abraham Lincoln, when he set aside Yosemite during 
the midst of the Civil War, the conservation legacy of Teddy 
Roosevelt and what he did at the beginning of the last century 
and Franklin Roosevelt continuing that effort during the most 
difficult times of The Depression and standing up the country 
for World War II. The investments that we look to make in terms 
of conservation do include full funding of the Land and Water 
Conservation Fund.
    When that program was created in the 1960s, it was thought 
that the resources that we would be taking from our oceans 
would provide a funding stream for conservation for the long 
term. Sadly, over the last 50 years, that has not happened, and 
instead, because of the appropriations mechanisms, only about 
half of the money that should have gone to conservation has 
actually gone to conservation. So the ups and downs really have 
meant that the Land and Water Conservation Fund has not been 
fully funded. This is an historic effort on the part of the 
President to fund it in the context of making sure that we are 
standing up the economy and looking ahead at the future in the 
same way that President Teddy Roosevelt did 102, 103 years ago.
    Finally, let me just make a quick comment about water. For 
many of you, especially from arid states in the West, you know 
the importance of water. We have a WaterSMART program which we 
have started since I became Secretary of the Interior. This 
last year alone, in 2010, through the funding of 37 projects we 
were able to conserve 490,000 acre-feet of water through these 
conservation programs. When we look at those of you who share 
from the seven states of the Colorado River Basin, we are 
looking at 20 percent declines of water in the Colorado River 
Basin. We are doing the same thing in looking at some declines 
in terms of water availability in many other parts of the 
country, so it is important that we continue to invest in these 
kinds of water conservation programs.
    Finally, with respect to youth and the opportunities that 
we create for young people of America and we address the jobs 
issues of this country, we have in the Department of the 
Interior hired about 21,000 people just in 2010. We hope to 
continue to be able to do that because these are young people 
who come and work in the Department of the Interior. (1) They 
help us do the work that is necessary for our mission; and (2) 
we provide training to young people who will become the 
conservation leaders of our country in the future and the 
workers of the Department of the Interior. In conclusion, Mr. 
Chairman, I look forward to working, with you with Ranking 
Member Markey, with members of this Committee on so many issues 
that are important to the United States of America.
    [The prepared statement of Secretary Salazar follows:]

          Statement of The Honorable Ken Salazar, Secretary, 
                    U.S. Department of the Interior

    Mr. Chairman and members of the Committee, I am pleased to be here 
today to present the details of the 2012 budget request for the 
Department of the Interior. I want to thank the members of this 
Committee for your support and interest in our Department.
    The 2012 budget builds on that strong foundation with $12.2 billion 
requested for the Department of the Interior. This is a freeze at the 
2010 level, including significant reductions and savings totaling $1.1 
billion, while funding key priorities. The budget demonstrates that we 
can responsibly cut the deficit, while investing to win the future and 
sustain the national recovery. Our budget promotes the actions and 
programs that America told us are important in 50 listening sessions 
across the Country. With that inspiration we developed a new 21st 
Century conservation vision--America's Great Outdoors. The budget 
continues to advance efforts that you have facilitated in renewable 
energy and sustainable water conservation, cooperative landscape 
conservation, youth in the outdoors, and reforms in our conventional 
energy programs.
Introduction
    Interior's mission is simple but profound--to protect America's 
resources and cultural heritage and honor the Nation's trust 
responsibilities to American Indians and Alaska Natives. Interior's 
people and programs impact all Americans.
    The Department is the steward of 20 percent of the Nation's lands 
including national parks, national wildlife refuges, and the public 
lands. Interior manages public lands and the Outer Continental Shelf--
providing access for renewable and conventional energy development and 
overseeing the protection and restoration of surface-mined lands. The 
Department of the Interior is also the largest supplier and manager of 
water in the 17 western States and provides hydropower resources used 
to power much of the country. Interior is responsible for migratory 
wildlife and endangered species conservation as well as the 
preservation of the Nation's historic and cultural resources. The 
Department supports cutting edge research in the earth sciences--
geology, hydrology, and biology--to inform resource management 
decisions at Interior and improve scientific understanding worldwide. 
The Department of the Interior also fulfills the Nation's unique trust 
responsibilities to American Indians and Alaska Natives, and provides 
financial and technical assistance for the insular areas.
    The Department makes significant contributions to the Nation 
measured in economic terms. The Interior Department supports over 1.3 
million jobs and over $370 billion in economic activity each year. 
Parks, refuges, and monuments generate over $24 billion in economic 
activity from recreation and tourism. Conventional and renewable energy 
produced on Interior lands and waters results in about $295 billion in 
economic benefits and the water managed by Interior supports over $25 
billion in agriculture. The American outdoor industry estimates 6.5 
million jobs are created every year from outdoor activities.
    In measures that cannot be translated into dollars and cents, the 
Department protects the Nation's monuments and priceless landscapes, 
conserves wildlife and fisheries, offers unparalleled recreational 
opportunities, protects and interprets the cultural collections that 
tell America's history, and manages resources that help to fulfill the 
Nation's demands for energy, minerals, and water. Through its trust 
responsibilities on behalf of American Indians and Alaska Natives, 
Interior supports tribal self-governance and the strengthening of 
Indian communities. For affiliated island communities, the Department 
fulfills important commitments providing much needed technical and 
financial assistance.
2010--A Year of Challenge and Success
    At the start of the Administration in 2009, I set Interior on a 
course to create a comprehensive strategy to advance a new energy 
frontier; tackle the impacts of a changing landscape; improve the 
sustainable use of water; engage youth in the outdoors; and improve the 
safety of Indian communities. These priority goals integrate the 
strengths of the Department's diverse bureaus and offices to address 
key challenges of importance to the American public. Interior has been 
making progress in these areas, including:
        <bullet>  Approving 12 renewable energy projects on public 
        lands that when built, will produce almost 4,000 megawatts of 
        energy, enough energy to power close to one million American 
        homes, and create thousands of construction and operational 
        jobs.
        <bullet>  Designating more than 5,000 miles of transmission 
        corridors on public lands to facilitate siting and permitting 
        of transmission lines and processing more than 30 applications 
        for major transmission corridor rights-of-way.
        <bullet>  Establishing three of eight planned regional Climate 
        Science Centers and nine of 21 Landscape Conservation 
        Cooperatives.
        <bullet>  Issuing grants to water districts and other water 
        delivery authorities resulting in the conservation of 150,000 
        acre-feet of water.
        <bullet>  Increasing the number of youth employed in 
        conservation through Interior or its partners increased by 45 
        percent over 2009 levels.
        <bullet>  Reducing overall crime in four Indian communities as 
        a result of a concerted effort to increase deployed law 
        enforcement officers, and conduct training in community 
        policing techniques, and engage the communities in law 
        enforcement efforts.
    The tragic events resulting from the explosion and sinking of the 
Deepwater Horizon drilling rig in April of last year drew the attention 
of the world to the Gulf of Mexico. Much of the focus of Interior's 
bureaus and offices in 2010 was on oil spill response, Gulf Coast 
restoration, strengthening safety and environmental standards for 
offshore energy production, and re-organizing and reforming the former 
Minerals Management Service (MMS). Nonetheless, the Department advanced 
other key priorities and strategic goals that will improve the 
conservation and management of natural and cultural resources into the 
future:
        <bullet>  Interior, along with the Department of Agriculture, 
        the Environmental Protection Agency, and the Council on 
        Environmental Quality, participated in the White House 
        Conference on America's Great Outdoors and held 50 public 
        listening sessions across the Country that have helped shape a 
        conservation vision and strategy for the 21st Century. We have 
        released a report, America's Great Outdoors: A Promise to 
        Future Generations, that lays out a partnership agenda for 21st 
        century conservation and recreation.
        <bullet>  In the spirit of America's Great Outdoors, we 
        welcomed new national wildlife refuges in Kansas and Colorado 
        and proposed a new conservation area in Florida at the 
        headwaters to the Everglades. These refuges mark a new era of 
        conservation for the Department, one that is community-driven, 
        science-based, and takes into account entire ecosystems and 
        working landscapes.
        <bullet>  The Department worked with others to develop an 
        action plan to bring relief for the drought-stricken California 
        Bay-Delta area, invested over $500 million in major water 
        projects over the past two years, and moved forward on long-
        standing water availability issues in the Colorado River Basin.
        <bullet>  In December, I issued my recommendation to Congress 
        to undertake an additional 5.5 miles of bridging on the Tamiami 
        Trail in the Everglades above and beyond the 1-mile bridge now 
        under construction. When combined with other planned work in 
        the Everglades Agricultural Area and water conservation areas, 
        this project should restore 100 percent of historic water 
        quantity and flow to Everglades National Park.
        <bullet>  With the help of Congress, we brought about 
        resolution of the Cobell v. Salazar settlement and resolved 
        four long-standing Indian water rights issues through enactment 
        of the Claims Resolution Act of 2010. We also completed 
        negotiation of a new Compact of Free Association with the 
        island of Palau which awaits Congressional approval.
        <bullet>  In December of last year, the President hosted the 
        second White House Tribal Nations Conference bringing together 
        tribal leaders from across the United States; we are improving 
        the Nation-to-Nation relationship with 565 Tribes.
Interior's Budget In Context
    In his State of the Union address in January, President Obama spoke 
of what it will take to ``win the future.'' He challenged the Nation to 
encourage American innovation, educate young people, rebuild America, 
and shrink the burden of mounting debt. Interior's 2012 budget request 
responds to this challenge. The investments proposed in this budget are 
balanced by reductions in other programs--recognizing the Nation's need 
to live within its means to ensure a legacy of economic strength.
    Taking Fiscal Responsibility - Interior's 2012 budget must be 
viewed in context of the difficult fiscal times facing the Nation and 
the President's freeze on discretionary funding. The 2012 budget 
reflects many difficult budget choices, cutting worthy programs and 
advancing efforts to shrink Federal spending. The budget contains 
reductions totaling $1.1 billion or 8.9 percent of the 2010 Enacted/
2011 CR level. Staffing reductions are anticipated in some program 
areas, which will be achieved through attrition, outplacement, and buy-
outs to minimize the need to conduct reductions in force to the 
greatest extent possible. These reductions are a necessary component of 
maintaining overall fiscal restraint while allowing us to invest 
additional resources in core agency priorities.
    This budget is responsible. The $12.2 billion budget funds 
important investments by eliminating and reducing lower priority 
programs, deferring projects, reducing redundancy, streamlining 
management, and capturing administrative and efficiency savings. It 
maintains funding levels for core functions that are vital to uphold 
stewardship responsibilities and sustain key initiatives. The 2012 
request includes $11.2 billion for programs funded by the Interior, 
Environment, and Related Agencies appropriation. This is $69.2 million, 
or less than one percent, above the 2010 enacted level and $87.6 
million above the 2011 annualized CR level. The 2012 request for the 
Bureau of Reclamation and the Central Utah Project Completion Act, 
funded in the Energy and Water Development Appropriations Act, is $1.1 
billion in current appropriations, $88.3 million or eight percent below 
the 2010 enacted level and $78.3 million or seven percent below the 
2011 CR level.
    Permanent funding that becomes available as a result of existing 
legislation without further action by the Congress results in an 
additional $5.6 billion, for $17.8 billion in total budget authority 
for Interior in 2012.
    Program Reductions and Terminations--Interior's $12.2 billion 
budget proposal includes $913.6 million in program terminations and 
program reductions of which $188.0 million are featured in the 
President's list of terminations and reductions. This also includes the 
elimination of $47.6 million in congressional earmarks not related to 
land acquisition or construction.
    These cuts were identified as part of a top to bottom review that 
considered mission criticality, the ability of partners to support the 
function, duplication or overlap, relevance to key initiatives, program 
performance, the relevance of timing and if the activity could be 
deferred, and short- and long-term strategic goals.
    Examples of the tough decisions made in 2012 include terminating 
the $7.0 million Rural Fire Assistance program which is duplicative of 
other fire assistance grant programs managed by the Department of 
Homeland Security and Department of Agriculture. The National Park 
Service's Save America's Treasures and Preserve America programs are 
eliminated in 2012 to focus NPS resources on the highest priority park 
requirements. The NPS Heritage Partnership Programs are reduced by half 
to encourage self-sufficiency among well-established National Heritage 
Areas while continuing support for newer areas. In the Bureau of Indian 
Affairs, the Indian Guaranteed Loan Program is reduced 63 percent in 
2012 pending an evaluation of the program's effectiveness and 
alternatives to improve program performance.
    Program reductions are proposed in every bureau and office in the 
Department. One area that is reduced Interior-wide is construction. The 
budget includes $178.8 million for the Bureau of Land Management, Fish 
and Wildlife Service, and National Park Service construction programs; 
in total this is a reduction of $100.2 million or 36 percent from the 
2010 enacted/2011 CR level. To achieve these reductions, the Department 
has frozen construction of new facilities in 2012 and deferred 
construction of replacement facilities. Interior's 2012 request for 
construction focuses on the highest priority health and safety and 
mission critical projects and defers lower priorities. The Department 
is committed to the repair and rehabilitation of current assets and 
funding for facility maintenance is held nearly level. The 2012 budget 
also slows the construction of major water management programs, 
including the Central Utah Completion Act. The 2012 budget request for 
CUPCA is $33.0 million, a reduction of $9.0 million.
    Administrative Savings - The budget includes $99.4 million in 
reductions reflecting administrative cost savings as part of the 
Administration's Accountable Government Initiative. These reductions 
will be generated by efficiencies throughout Interior, changing how the 
Department manages travel, employee relocation, acquisition of supplies 
and printing services, and the use of advisory services. These 
reductions are in addition to $62.0 million in travel, information 
technology, and strategic sourcing savings identified as part of the 
President's 2011 request. These reductions are sustained in the 2012 
request along with bureau-specific efficiencies.
        <bullet>  The Department will achieve $42 million in savings in 
        travel and relocation through improved management at the 
        program level and re-examination of Departmental policies.
        <bullet>  An estimated $53 million in savings will be achieved 
        through acquisition improvement initiatives including shared 
        contracts to use Interior-wide for the acquisition of 
        commodities, supplies, and services. In 2011, Interior is 
        implementing Department-wide strategic sourcing initiatives for 
        office supplies and copier-based multifunctional devices. 
        Savings from expanded strategic sourcing is one component of a 
        comprehensive plan to improve acquisition practices throughout 
        Interior.
        <bullet>  Efficiency savings from expanded strategic sourcing 
        is one component of a comprehensive plan to improve acquisition 
        practices throughout Interior. Another component to reduce 
        advisory services spending will achieve an approximate $15 
        million in savings.
        <bullet>  Through careful planning, strategic investments, and 
        unprecedented cooperation, significant opportunity exists to 
        realize efficiencies in the Department's IT infrastructure of 
        an estimated $36 million, including energy and cost savings. 
        The Department has identified five primary focus areas: risk-
        based information security services, infrastructure 
        consolidation, unified messaging, workstation ratio reduction, 
        and radio site consolidation.
        <bullet>  The Department's 2012 budget reflects a freeze on 
        Federal salaries for 2011 and 2012 and requirements to address 
        fixed cost increases are limited to anticipated changes in the 
        Federal contributions to health benefits, GSA rent increases, 
        changes in workers and unemployment compensation costs, and 
        specific contract requirements for P.L. 93-638 agreements.
    Cost Recovery - The budget proposes to increase cost recovery to 
offset the cost of some resource development activities that provide 
clear benefits to customers.
    The budget proposes to increase fees for offshore oil and gas 
inspections from $10.0 million in the 2010 enacted budget to $65.0 
million in 2012. These fee collections incorporate a more robust 
inspection program and expand the scope of offshore inspection fees to 
include offshore drilling rigs, given the need for greater scrutiny of 
drilling operations as a core component of deepwater oil and gas 
development. This is consistent with the National Commission on the BP 
Deepwater Horizon Oil Spill and Offshore Drilling. The report states 
that the oil and gas industry should be ``required to pay for its 
regulators'' so that the costs of regulation ``would no longer be 
funded by taxpayers but instead by the industry that is permitted to 
have access to a publicly owned resource.''
    Similarly, the budget proposes to collect $38.0 million for onshore 
oil and gas inspection activities conducted by BLM. The budget also 
proposes new fees totaling $4.4 million for coal and other minerals 
inspections conducted by BLM to recover the costs of inspecting these 
operations.
    Likewise, the budget proposes to decrease OSM grants to state 
programs that regulate the coal industry, to encourage those states to 
increase cost recovery fees for coal mine permit processing.
Investments for the Future
    America's Great Outdoors-Last year, the Administration initiated a 
national dialogue at the White House Conference on America's Great 
Outdoors. In 50 listening sessions held across the Country, the public 
communicated their conservation and recreation priorities, and the 
result is a report to the President, America's Great Outdoors: A 
Promise to Future Generations. The report outlines how the Federal 
Government can support a renewed and refreshed conservation vision by 
working in collaboration with communities, farmers and ranchers, 
businesses, conservationists, youth and others who are working to 
protect the places that matter to them and by engaging people across 
the country in conservation and recreation.
    The report calls for the government and its partners to help 
conserve and recreate on the lands and places that Americans care about 
most. To this end, the report recommends expanding access to green 
spaces for recreation, restoring and connecting open spaces and rural 
landscapes to power economic revitalization and species conservation,, 
and increasing our investment of revenue from oil and gas development 
in the protection of open spaces. The report calls for the revision of 
government policies to improve program effectiveness and alignment, and 
leverage local, community driven efforts and asks the Federal 
government to be a better partner with States, Tribes, landowners, 
local communities, the private sector and others to meet shared 
conservation goals.
    The 2012 President's budget identifies resources that are targeted 
on these outcomes with $5.5 billion for programs included in the 
America's Great Outdoors initiative, an increase of $363.0 million over 
the FY 2010 level. The components of this budget request include land 
management operations, programs funded through the Land and Water 
Conservation Fund, and grant programs focused on partnerships that 
conserve natural resources, restore, rivers and trails, and preserve 
the Nation's historic assets.
    The 2012 budget for America's Great Outdoors includes $4.6 billion 
for core operations, an increase of $13.5 million, in the land and 
resource management bureaus--BLM, FWS, and NPS. Increases in Interior's 
land management bureaus will enhance cultural and interpretative 
programs throughout our network of national parks, refuges and public 
lands. This funding will also support day-to-day operations, improve 
the condition of facilities, and address natural resource management 
needs. More than 285 million Americans and foreign tourists visited the 
Nation's national parks in 2009, nearly 11 million more than in 2008, a 
3.9 percent increase. This was the fifth busiest year for the national 
park system, just missing the all-time visitation record set in 1987. 
The increased visitation to the national parks reinforces the 
importance and value Americans place on their treasured landscapes.
    The initiative also includes $675.0 million for programs funded 
from the Land and Water Conservation Fund. The components of this 
request are: $375.0 million for Federal land acquisition, $200.0 
million for an expanded LWCF State grants program including competitive 
grants, and $100.0 million for Cooperative Endangered Species 
Conservation Grants.
    The 2012 budget for Interior and the U.S. Forest Service includes 
full funding, $900 million, for the Land and Water Conservation Fund. 
This funding is drawn from revenue generated each year from oil and gas 
development. This fulfills the vision for the LWCF, with a dedicated 
source of funding generated from the depletion of resources to be used 
annually to advance resource conservation and recreational 
opportunities. For the 2012 budget, the Department coordinates Interior 
bureaus' and the Forest Service's land acquisition priorities and 
presents a joint conservation strategy that maximizes conservation 
outcomes in key geographic focal areas.
    The 2012 budget also includes $150.0 million for fish and wildlife 
conservation grants, an increase of $7.0 million, including $50.0 
million for the North American Wetlands Conservation Fund, $95.0 
million for State and Tribal Wildlife Grants, and $5.0 million for 
Neotropical Migratory Bird Conservation Grants. An additional $72.4 
million is proposed for NPS partnership programs, including $62.4 
million for historic preservation grants to States and Tribes, an 
increase of $6.5 million and $10.0 million for the Rivers, Trails and 
Conservation Assistance program, an increase of $1.1 million.
    The 2012 America's Great Outdoors initiative focuses on investments 
that will lead to healthy lands, waters and resources while stimulating 
the economy--goals that are complementary. Through strategic 
partnerships, Interior will support and protect historic uses of lands, 
restore lands and resources, protect and interpret historic and 
cultural resources, and expand outdoor recreation opportunities. All of 
these activities have significant economic benefits in rural and urban 
communities. An economic impact analysis completed by the Department in 
December 2009 estimates that in 2008 more than 400 million visits to 
the Nation's parks, refuges, and public lands generated nearly $25 
billion and over 300,000 jobs in recreation and tourism, contributing 
significantly to the economic vitality of many communities.
    New Energy Frontier--The 2012 budget continues the Department's New 
Energy Frontier initiative to create jobs, reduce the Nation's 
dependence on fossil fuels and oil imports, and reduce carbon impacts. 
Facilitating renewable energy development is a major component of this 
strategy along with effective management of conventional energy 
programs.
    The Department has made significant advances in its priority goal 
to increase approved capacity for renewable energy production on 
Interior lands by at least 10,000 megawatts by the end of 2012, while 
ensuring full environmental review. To date, BLM has approved projects 
that, when built, will generate approximately 4,000 megawatts of 
energy. The budget requests $72.9 million for renewable energy programs 
in 2012, an increase of $13.9 million above the 2010 enacted/2011 CR 
level.
    While we work to develop renewable energy sources, domestic oil and 
gas production remain critical to our nation's energy supply and to 
reducing our dependence on foreign oil. As was underscored by the 
tragic explosion of the Deepwater Horizon and the oil spill that 
followed, we must take immediate steps to make production safer and 
more environmentally responsible. The recently-released report from the 
National Commission on the BP Deepwater Horizon Oil Spill and Offshore 
Drilling concludes that neither industry nor the government were 
adequately prepared to respond to a blowout in deepwater. We have been 
aggressively pursuing reforms to raise the bar on safety standards for 
offshore drilling--including new standards for how well they are 
drilled and for the safety systems to prevent blowouts, as well as 
requiring operators to demonstrate that they are able to respond 
promptly and effectively to a loss of well control in deepwater. We are 
also making fundamental changes to improve the effectiveness of 
government safety oversight and environmental protection.
    The Commission's recommendations are, in many ways, a strong 
validation of the reforms that we at the Department of the Interior 
have been undertaking to promote safety and science in offshore oil and 
gas operations. Moreover, the Commission's findings and recommendations 
bolster the case for Interior's comprehensive reforms and the 
reorganization of offshore oil and gas oversight that will remedy 
conflicted missions, stand up a stronger regulatory framework, create 
an internal review unit to investigate problems in a timely manner, 
improve agency and industry management of safety and environmental 
protection, and expand the team of inspectors, engineers and other 
safety personnel. Many reforms have already been accomplished 
including:
        <bullet>  Implementation of strong new safety and environmental 
        standards including: a safety rule that raises standards for 
        everything from drilling equipment and well design to casing 
        and cementing; a requirement that companies establish 
        comprehensive risk management programs; a requirement that 
        operators demonstrate capability to deal with a catastrophic 
        blowout; limiting the use of categorical exclusions so that 
        proposed lease sales and drilling projects go through rigorous 
        environmental reviews under the National Environmental Policy 
        Act (NEPA); and requiring companies to put their signature on 
        the line to state that their rigs comply with safety and 
        environmental laws and regulations.
        <bullet>  Termination of the controversial royalty-in-kind 
        program, which accepted oil and natural gas from producers in 
        lieu of cash royalty payments, in favor of a more transparent 
        and accountable royalty collection system.
        <bullet>  Dissolution of the Minerals Management Service with 
        the transfer of minerals revenue management to the Office of 
        Natural Resources Revenue in the Office of the Secretary and 
        creation of the Bureau of Ocean Energy Management, Regulation 
        and Enforcement as an interim organization while further 
        structural changes are made.
        <bullet>  Formulation of a plan for reorganization of the 
        former MMS that will separate the offshore resource management 
        and the safety and environmental enforcement programs into two 
        independent organizations--the Bureau of Ocean Energy 
        Management and the Bureau of Safety and Environmental 
        Enforcement.
        <bullet>  Development and implementation of regulations and 
        guidance to operators to heighten standards for drilling 
        safety, including requiring operators to demonstrate the 
        ability to respond to a deepwater blowout.
        <bullet>  Continuing to pursue changes responsive to the 
        recommendations of the Safety Oversight Board, the National 
        Academy of Engineering, and the National Commission on the BP 
        Deepwater Horizon oil Spill.
        <bullet>  Completion of a review of ethics issues related to 
        the Department's management of the OCS program and creation of 
        the Investigations and Review Unit.
        <bullet>  Implementation of a recruitment strategy for BOEMRE 
        to expand the field of inspectors and engineers including 
        recruitment tours of petroleum engineering programs at 
        universities across the country.
        <bullet>  Establishment of the Offshore Energy Safety Advisory 
        Committee to advise BOEMRE on issues related to offshore energy 
        safety, including drilling and workplace safety, well 
        intervention and containment, and oil spill response.
    The 2012 budget includes $506.3 million for the components of the 
former Minerals Management Service to continue our efforts at 
reorganization and reform of both offshore energy development 
activities and mineral revenue collection. This includes a total 
program of $358.4 million for the Bureau of Ocean Energy Management, 
Regulation and Enforcement, an increase of $119.3 million, or 50 
percent, over the 2010 enacted level, after adjusting for the transfer 
of mineral revenue collections to the new Office of Natural Resources 
Revenue. The budget proposes to offset BOEMRE program funding with 
$160.2 million in offsetting rental receipts and cost recoveries and 
$65.0 million from oil and gas inspection fees.
    The budget makes investments to increase capacity for leasing and 
environmental review, safety and environmental enforcement, and oil 
spill research. This request will enable Interior to hire over 100 
inspectors, engineers, and other safety and enforcement staff by the 
end of 2012. The 2012 budget includes funding for the Investigations 
and Review Unit to respond to allegations or evidence of misconduct and 
unethical behavior; oversee and coordinate internal auditing, 
regulatory oversight and enforcement systems and programs; and ensure 
the organization's ability to respond to emerging issues and crises, 
including spills and accidents. Funding is also included to support the 
use of sound science in all of the Department's offshore energy 
activities.
    The 2012 budget request also includes $147.9 million for the Office 
of Natural Resources Revenue located in the Office of the Secretary. 
The proposed $38.7 million increase over the 2010 enacted level will 
allow us to strengthen auditing and compliance efforts for royalty 
revenue collections and to complete the transition of the royalty-in-
kind (RIK) program to royalty-in-value collections.
    Youth in the Great Outdoors--Furthering the youth and conservation 
goals of the America's Great Outdoors initiative, the 2012 budget 
proposes to continue engaging youth by employing and educating young 
people from all backgrounds. The 2012 budget includes $46.8 million for 
youth programs, an increase of $7.6 million above the 2010 enacted/2011 
CR level.
    Interior is uniquely qualified to engage and educate young people 
in the outdoors and has programs that establish connections for youth 
ages 18 to 25 with natural and cultural resource conservation. These 
programs help address unemployment in young adults and address health 
issues by encouraging exercise and outdoor activities. For example, 
Interior is taking part in the First Lady's Let's Move initiative to 
combat the problem of childhood obesity. The Bureau of Land Management, 
National Park Service and Fish and Wildlife Service have Let's Move 
Outside programs to promote physical activity for children and families 
on the Nation's public lands. Interior has long-standing partnerships 
with organizations such as the 4-H, the Boy Scouts, the Girl Scouts, 
the Youth Conservation Corps, and the Student Conservation Association. 
These programs leverage Federal investments to put young people to work 
and build a conservation ethic.
    In 2010, Interior met its high priority performance goal to employ 
15,900 in conservation-related careers through the Department or its 
partners. This is a 45 percent increase from 2009. The 2012 goal is to 
increase this youth employment by 60 percent.
    Cooperative Landscape Conservation--The 2012 budget realigns 
programs and funding to better equip land and resource managers with 
the tools they need to effectively conserve resources in a rapidly 
changing environment. Significant changes in water availability, longer 
and more intense fire seasons, invasive species and disease outbreaks 
are creating challenges for resource managers and impacting the 
sustainability of resources on public lands. These changes result in 
bark beetle infestations, deteriorated range conditions, and water 
shortages that negatively impact grazing, forestry, farming, as well as 
the status of wildlife and the condition of their habitats. Many of 
these problems are caused by or exacerbated by climate change.
    The 2012 Budget includes $175.0 million for cooperative landscape 
conservation, an increase of $43.8 million. The budget funds the 
completion of the Climate Science Centers and Landscape Conservation 
Cooperatives, the organizing framework for the Department's efforts to 
work collaboratively with others to understand and manage these 
changes. These efforts will allow the Department to meet its priority 
goal to identify resources vulnerable to climate change and implement 
coordinated adaptation response actions for 50 percent of the Nation by 
the end of 2012.
    The request for USGS climate variability science is $73 million, 
which includes $14.3 million for carbon sequestration research. USGS is 
conducting cutting edge research in biological and geological carbon 
sequestration, to investigate the potential of removing carbon dioxide 
from the atmosphere for storage in vegetation, soils, sediments, oil 
and gas reservoirs and saline geologic formations. The 2012 budget will 
advance USGS research to assess rates and potential capacity for carbon 
storage in ecosystems, and evaluate the Nation's potential resources 
for geological storage.
    Water Challenges--Interior is working to address the 21st Century 
pressures on the Nation's water supplies. Population growth, aging 
water infrastructure, changing climate, rising energy demands, impaired 
water quality and environmental needs are among the challenges. Water 
shortage and water use conflicts have become more commonplace in many 
areas of the United States, even in normal water years. As competition 
for water resources grows, the need for information and tools to aid 
water resource managers also grows. Water issues and challenges are 
increasing across the Nation, but particularly in the West and 
Southeast due to prolonged drought. Traditional water management 
approaches no longer meet today's needs.
    Reclamation proposes to fund WaterSMART at $58.9 million, $11.0 
million below 2011 levels. The three ongoing WaterSMART programs 
include: the WaterSMART Grant program funded at $18.5 million; Basin 
Studies funded at $6.0 million; and the Title XVI Water Reclamation and 
Reuse program funded at $29.0 million. Two programs are being added to 
WaterSMART in 2012, the continuing Water Conservation Field Services 
program, funded at $5.1 million, and participation by Reclamation in 
the Cooperative Watershed Management program, funded at $250,000. This 
is a joint effort with the USGS. The USGS will use $10.9 million, an 
increase of $9.0 million, for a multi-year, nationwide water 
availability and use assessment program. Other significant programs and 
highlights include:
    In 2010, I issued a Secretarial Order establishing a new water 
sustainability strategy to coordinate Interior's water sustainability 
efforts, create a clearinghouse for water conservation best practices, 
implement a water footprint reduction program to reduce consumption of 
potable water by 26 percent by 2020. We are in dialogue with Mexico on 
the management of the Colorado River and we are actively pursuing 
workable solutions to regional issues such as in the California Bay-
Delta.
    The Bay-Delta is a source of drinking water for 25 million 
Californians and sustains about $400 billion in annual economic 
activity, including a $28 billion agricultural industry and up until 
recently supported a thriving commercial and recreational fishing 
industry. Our efforts in the Bay-Delta are focused on co-leading an 
inter-agency effort with the Council on Environmental Quality (CEQ) to 
implement the December 2009 Interim Federal Action Plan for the 
California Bay-Delta Conservation Plan. In coordination with five other 
Federal agencies, we are leveraging our activities to address 
California water issues, promote water efficiency and conservation, 
expand voluntary water transfers in the Central Valley, fund drought 
relief projects, and make investments in water infrastructure. Over the 
past two years, we have invested over $500 million in water projects in 
California. We have also, in close coordination with NOAA and the state 
of California, worked on the California Bay-Delta Conservation Plan, a 
long-term plan aimed at restoring both reliable water supplies and a 
healthy Bay-Delta ecosystem.
    On February 18 we announced the initial 2011 Water Supply 
Allocation for Central Valley Project water users. We were pleased to 
report that some of the CVP contractors and waters users will receive a 
100 percent allocation due to the precipitation and snowpack in the 
Sierra Nevada Mountains and improved carryover reservoir storage. 
Agricultural water service contractors South-of-Delta have an initial 
allocation of 50 percent but this is an improvement on the 46 percent 
initial allocation they've averaged over the past 20 years. These 
allocations represent good news given recent years, but many challenges 
remain. We will continue to work with our Federal, State and local 
partners to improve water supply reliability while addressing 
significant ecological issues.
    Our 2012 budget for the Bureau of Reclamation includes $53.1 
million for the Central Valley Project Restoration Fund that is offset 
by collections estimated at $52.8 million. The 2012 budget for 
Reclamation includes $39.7 million for the California Bay-Delta 
Restoration account and $35.1 million for San Joaquin River 
restoration. An additional $6.9 million is included in the budget for 
the FWS and USGS activities in support of Bay-Delta ecosystem 
restoration.
    Strengthening Tribal Nations--The 2012 Budget for Indian programs 
is $2.5 billion, a decrease of $118.9 million. The reduction includes 
completion of a one-time $50.0 million forward funding payment to 
tribal colleges, completion of $47 million in public safety projects 
normally funded by the Department of Justice, and $ 14.5 million for 
completed water settlements.
    The BIA budget includes reductions that are tougher choices, 
including reductions of $27.0 million in Trust Real Estate Services, 
$14.2 million in central oversight programs, and $5.1 million in the 
Indian Guaranteed Loan Program.
    The 2012 budget provides $89.6 million in increases including: 
$42.3 million for programs that advance the Nation-to-Nation 
relationship; $20.0 million to enhance public safety and justice 
programs; $18.4 million to improve trust land management; and $8.9 
million for education programs. The 2012 budget includes an increase of 
$29.5 million for contract support and the Indian Self-Determination 
Fund--this was the highest priority of the Indian Tribes. These funds 
will enable Tribes to fulfill administrative requirements associated 
with operating programs.
    The 2012 budget supports achievement of a priority goal to reduce 
violent crime by at least five percent within 24 months on targeted 
tribal reservations through a comprehensive and coordinated strategy. 
The budget includes $354.7 million, an increase of $20.0 million, for 
law enforcement operations, detention center operations and 
maintenance, tribal courts, and conservation law enforcement officers.
    Indian Land and Water Settlements - The 2012 budget includes $84.3 
million in the Bureau of Reclamation and Bureau of Indian Affairs to 
implement land and water settlements.
    The Bureau of Reclamation's budget includes $51.5 million, an 
increase of $26.7 million, for the initial implementation of four 
settlements authorized in the Claims Resolution Act of 2010. The 
legislation included water settlements for the Taos Pueblo of New 
Mexico and Pueblos of New Mexico named in the Aamodt case, the Crow 
Tribe of Montana, and the White Mountain Apache Tribe of Arizona.
    The Claims Resolution Act of 2010 establishes trust funds for 
Tribes to manage water systems and settlement funds to develop 
infrastructure. The primary responsibility for constructing these water 
systems was given to the Bureau of Reclamation, while the Bureau of 
Indian Affairs is responsible for the majority of the trust funds, 
which includes $207.2 million in mandatory funding in 2011.
    These settlements will deliver clean water to the Taos Pueblo and 
the Pueblos of Nambe, Pojoaque, San Ildefonso, and Tesuque in New 
Mexico, the Crow Tribe of Montana, and the White Mountain Apache Tribe 
of Arizona. In addition to funding for the initial implementation of 
these four settlements, Reclamation's budget includes $24.8 million for 
the Navajo-Gallup Water Supply project. In the 2012 budget, Reclamation 
is establishing an Indian Water Rights Settlements account to assure 
continuity in the construction of the authorized projects and to 
highlight and enhance transparency.
    The Bureau of Indian Affairs 2012 budget includes $32.9 million for 
ongoing Indian land and water settlements, a reduction of $12.9 
million, reflecting completion of the Pueblo of Isleta, Puget Sound 
Regional Shellfish, and Soboba Band of Luiseno Indians settlements.
    Land Remote Sensing - For forty years, Landsat satellites have 
recorded the global landscape, creating an archive of both natural and 
man-made changes. This imagery generates $935 million in value for the 
U.S. economy by driving innovation in the agricultural, water 
management, and disaster response sectors. For example, foresters 
around the country use Landsat imagery to remotely map and monitor the 
status of woodlands in near real-time. This allows them to track the 
devastation caused by the pine bark beetle in the Rocky Mountains and 
monitor drought and fire-prone areas.
    Landsat fills an essential need for data that is refreshed on a 
time scale and with a level of resolution and granular detail that is 
otherwise not available. Commercial data is not available that fill a 
void that could be created in the absence of continuous Landsat 
coverage.
    The 2012 budget for the U.S. Geological Survey includes $48.0 
million to begin planning activities with the National Aeronautics and 
Space Administration for an operational Landsat program. Consistent 
with the Administration's National Space Policy, the 2012 budget 
enables the USGS to assume management responsibility for a new 
operational Landsat program that will ensure continuity of Landsat data 
in the future. USGS will provide data requirements and funding, while 
NASA, drawing on its historic expertise, will build the Landsat 
satellites on a reimbursable basis for the USGS. This new operating 
structure is consistent with the approach used for NOAA's JPSS weather 
satellites, and will ensure sufficient oversight while avoiding 
duplication.
    The 2012 budget will enable USGS to gather and prioritize Federal 
user community requirements for land image data, conduct trade studies 
on key design alternatives related to the development of the imaging 
device, initiate the procurement process through NASA for the Landsat 9 
and 10 instruments and spacecrafts, and establish a science advisory 
team, in order to launch Landsat 9 in FY 2019 and Landsat 10 in FY 
2024.
    Also included within a new separate account for National Land 
Imaging is an increase of $13.4 million to complete the retooling of 
the ground receiving stations to be able to receive data from the new 
instruments on Landsat 8, expected to be launched in December of 2012.
Mandatory Proposals
    Interior continues to generate more revenue for the U.S. Treasury 
than its annual discretionary appropriation. In 2012, Interior will 
generate revenue of approximately $14.1 billion and propose mandatory 
legislation estimated to generate another $3 billion in revenue and 
savings over ten years. The budget assumes the enactment of legislative 
proposals that we plan to submit to Congress in the coming weeks. These 
proposals will reform abandoned mine reclamation and hardrock mining on 
Federal lands, and collect a fair return to the American taxpayer for 
the development of Federal resources.
    Reform Abandoned Mine Land Reclamation-The Administration proposes 
to reform the Abandoned Mine Lands program to reduce unnecessary 
spending and ensure that the Nation's highest priority abandoned coal 
and hardrock sites are reclaimed. First, the budget proposes to 
terminate the unrestricted payments to States and Tribes that have been 
certified for completing their coal reclamation work as these payments 
are no longer needed for reclamation of abandoned coal mine lands. 
Second, the budget proposes to reform the distribution process for the 
remaining reclamation funding to competitively allocate available 
resources to the highest priority coal abandoned mine lands sites. 
Through a competitive grant program, a new Abandoned Mine Lands 
Advisory Council will review and rank the abandoned mine lands sites, 
so that the Office of Surface Mining can distribute grants to reclaim 
the highest priority coal sites each year.
    Third, to address the legacy of abandoned hardrock mines across the 
U.S., Interior will create a parallel Abandoned Mine Lands program for 
abandoned hardrock sites. Like the coal program, hardrock reclamation 
would be financed by a new abandoned mine lands fee on the production 
of hardrock minerals on both public and private lands displaced after 
January 2012. The BLM would distribute the funds through a competitive 
grant program to reclaim the highest priority hardrock abandoned sites 
on Federal, State, tribal, and private lands.
    Altogether, this proposal will save $1.3 billion over the next ten 
years, focus available coal fees on the Nation's most dangerous 
abandoned coal mines, and hold the hardrock mining industry responsible 
for cleaning up the hazards left by their predecessors.
    Reform Hardrock Mining on Federal Lands - The budget proposes to 
provide a fair return to the taxpayer from hardrock production on 
Federal lands. The proposal would institute a leasing program under the 
Mineral Leasing Act of 1920 for certain hardrock minerals including 
gold, silver, lead, zinc, copper, uranium, and molybdenum, currently 
covered by the General Mining Law of 1872.
    After enactment, mining for these metals on Federal lands would be 
governed by the new leasing process and subject to annual rental 
payments and a royalty of not less than five percent of gross proceeds. 
Half of the receipts would be distributed to the States in which the 
leases are located and the remaining half would be deposited in the 
Treasury. Existing mining claims would be exempt from the change to a 
leasing system, but would be subject to increases in the annual 
maintenance fees under the General Mining Law of 1872. The Office of 
Natural Resources Revenue will collect, account for, and disburse the 
hardrock royalty receipts. This proposal would generate an estimated 
$100 million in revenue over ten years.
    Fee on Non-producing Oil and Gas Leases - The Administration will 
submit a legislative proposal to encourage energy production on lands 
and waters leased for development. A $4.00 per acre fee on non-
producing Federal leases both onshore and offshore would provide a 
financial incentive for oil and gas companies to either get their 
leases into production or relinquish them so that the tracts can be 
leased to and developed by new parties. The proposed $4.00 per acre fee 
would apply to all new leases and would be indexed annually. In October 
2008, the Government Accountability Office issued a report critical of 
past efforts by Interior to ensure that companies diligently develop 
their Federal leases. Although the report focused on administrative 
actions that the Department could undertake, this proposal requires 
legislative action. This proposal is similar to other non-producing fee 
proposals considered by the Congress in the last several years. The fee 
is projected to generate revenues to the U.S. Treasury of $25 million 
in 2012 and $874 million over ten years.
    Net Receipts Sharing for Energy Minerals - The Administration 
proposes to make permanent the current arrangement for sharing the cost 
to administer energy and minerals receipts, beginning in 2013. Under 
current law, States receiving significant payments from mineral revenue 
development on Federal lands also share in the costs of administering 
the Federal mineral leases from which the revenue is generated. In 
2012, this net receipts sharing deduction from mineral revenue payments 
to States would be implemented as an offset to the Interior 
Appropriations Act, consistent with the provision included in 2010 and 
continued under the 2011 CR. Permanent implementation of net receipts 
sharing is expected to result in savings of $44 million in 2013 and 
$441 million over ten years.
    Repeal Oil and Gas Fee Prohibition and Mandatory Permit Funds - The 
Administration proposes to repeal portions of Section 365 of the Energy 
Policy Act, beginning in 2013. Section 365 diverted mineral leasing 
receipts from the U.S. Treasury to a BLM Permit Processing Improvement 
Fund and also prohibited BLM from establishing cost recovery fees for 
processing applications for oil and gas permits to drill. Congress has 
implemented permit fees through appropriations language for the last 
several years and the 2012 budget proposes to continue this practice. 
Starting in 2013, upon elimination of the fee prohibition, BLM will 
promulgate regulations to administratively establish fees for 
applications for permits to drill. In combination with normal 
discretionary appropriations, these cost recovery fees will then 
replace the permit fees set annually through appropriations language 
and the mandatory permit fund, which would also be repealed starting in 
2013. Savings from terminating this mandatory funding are estimated at 
$20 million in 2013 and $57 million over three years.
    Geothermal Energy Receipts - The Administration proposes to repeal 
Section 224(b) of the Energy Policy Act of 2005. Prior to passage of 
this legislation, geothermal revenues were split between the Federal 
government and States, with 50 percent directed to States, and 50 
percent to the Treasury. The Energy Policy Act of 2005 changed this 
distribution beginning in 2006 to direct 50 percent to States, 25 
percent to counties, and for a period of five years, 25 percent to a 
new BLM Geothermal Steam Act Implementation Fund. The allocations to 
the new BLM geothermal fund were discontinued a year early through a 
provision in the 2010 Interior Appropriations Act. The repeal of 
Section 224(b) will permanently discontinue payments to counties and 
restore the disposition of Federal geothermal leasing revenues to the 
historical formula of 50 percent to the States and 50 percent to the 
Treasury. This results in savings of $6.5 million in 2012 and $74 
million over ten years.
    Deep Gas and Deepwater Incentives - The Administration proposes to 
repeal Section 344 of the Energy Policy Act of 2005. Section 344 
mandated royalty incentives for certain ``deep gas'' production on the 
OCS. This change will help ensure that Americans receive fair value for 
federally owned mineral resources. Based on current oil and gas price 
projections, the budget does not assume savings from this change; 
however, the proposal could generate savings to the Treasury if future 
natural gas prices end up below current projections.
    Repeal of Authorities to Accept Royalty Payments In Kind - The 
Administration proposes to solidify a recent Departmental reform 
terminating the Royalty-in-Kind program by repealing all Interior 
authorities to accept future royalties through this program. This 
change will help increase confidence that future royalty payments will 
be properly accounted for. The budget does not assume savings from this 
change because the Administration does not anticipate restarting the 
program; however, if enacted, this proposal would provide additional 
certainty that a new Royalty-in-Kind program would not be initiated at 
some point in the future.
    Federal Land Transaction Facilitation Act - The Administration 
proposes to reauthorize this Act, eliminating the 2011 sunset date and 
allowing lands identified as suitable for disposal in recent land use 
plans to be sold using the Act's authority. The Act's sales revenues 
would continue to be used to fund the acquisition of environmentally 
sensitive lands and the administrative costs associated with conducting 
sales.
    Federal Migratory Bird Hunting and Conservation Stamps - Federal 
Migratory Bird Hunting and Conservation Stamps, commonly known as Duck 
Stamps, were originally created in 1934 as the annual Federal license 
required for hunting migratory waterfowl. Today, 98 percent of the 
receipts generated from the sale of these $15.00 stamps are used to 
acquire important migratory bird areas for migration, breeding, and 
wintering. The price of the Duck Stamp has not increased since 1991, 
while the cost of land and water has increased significantly. The 
Administration proposes to increase these fees to $25.00 per stamp per 
year, beginning in 2012. Increasing the price of Duck Stamps will bring 
the estimate for the Migratory Bird Conservation account to 
approximately $58 million. With these increased receipts, the 
Department anticipates additional acquisition of approximately 7,000 
acres in fee and approximately 10,000 acres in conservation easement in 
2012. Total acres acquired for 2012 would then be approximately 28,000 
acres in fee title and 47,000 acres in perpetual conservation 
easements.
    Compact of Free Association - On September 3, 2010, the U.S. and 
the Republic of Palau successfully concluded the review of the Compact 
of Free Association and signed a 15-year agreement that includes a 
package of assistance through 2024. Under the agreement, Palau 
committed to undertake economic, legislative, financial, and management 
reforms. The conclusion of the agreement reaffirms the close 
partnership between the U.S. and the Republic of Palau. Permanent and 
indefinite funding for the compact expired at the end of 2010. The 2012 
budget seeks to authorize permanent funding for the Compact as it 
strengthens the foundations for economic development by developing 
public infrastructure, and improving health care and education. Compact 
funding will also undertake one or more infrastructure projects 
designed to support Palau's economic development efforts. The Republic 
of Palau has a strong track record of supporting the U.S. and its 
location is strategically linked to Guam and U.S. operations in 
Kwajalein Atoll. The cost for this proposal for 2012-2021 is $188.5 
million.
    Extend Service First Authority - The budget includes legislative 
language to extend authority for the Service First program. The laws 
creating Service First give Interior and Agriculture the authority to 
establish pilot programs that leverage joint resources. Service First 
allows certain land management agencies to conduct activities jointly 
or on behalf of one another; collocate in Federal offices or leased 
facilities; make reciprocal delegations of respective authorities, 
duties, and responsibilities; and transfer funds and provide 
reimbursements on an annual basis, including transfers and 
reimbursements for multi-year projects. This authority is currently set 
to expire at the end of 2011. The extension included in the budget will 
make the Service First authority permanent to continue these 
arrangements that have saved costs and improved effectiveness.
Conclusion
    Thank you for the opportunity to testify on the President's 2012 
budget request for the Department of the Interior. We have a tremendous 
opportunity to improve the future for our children and grandchildren 
with smart investments. This budget has fiscal discipline and 
restraint, but it includes forward looking investments. For America to 
be at its best and win the future, we need lands that are healthy, 
waters that are clean, and an expanded range of energy options to power 
our economy. I look forward to working with you to implement this 
budget. This concludes my written statement. I am happy to answer any 
questions that you may have.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Secretary, and thank 
you for your testimony. We will now begin the questioning 
process and I will recognize myself for five minutes. Mr. 
Secretary, as we all know, gasoline prices are climbing and 
Americans could be paying an average of $4 per gallon very soon 
and maybe even higher. Back in 2008 when gas prices did reach 
$4 a gallon, the American people responded by asking Congress 
and the President to lift the OCS moratoria and open new areas 
to drilling and that happened at the end of 2008. Since 
President Obama has taken office, your Department and this 
Administration has systematically, in my view, reclosed these 
areas to possible energy production. Onshore lease sales have 
been canceled in the West, no progress has been made in 
advancing new production in Alaska. In the Gulf of Mexico, the 
de facto moratorium imposed by this Administration has further 
hindered our domestic energy production and increased our 
reliance on foreign oil.
    In fact, as part of the interim safety report issued by BLM 
last October, the Interior Department stated, and I quote out 
of this manual, your manual, ``There is sufficient spare 
capacity in OPEC to offset a decrease in Gulf of Mexico 
deepwater production that could occur as a result of this rule. 
This rule came from Interior.'' The Administration is not only 
admitting, but seems complacent to the fact that they are 
deepening Americans' dependence on OPEC and foreign countries 
for our energy. The American people understand that we cannot, 
and should not, rely on OPEC for energy security. The 
responsibility to produce America's energy resources, as you 
alluded to just a moment ago, rests squarely with the 
Department of the Interior. It has the authority over America's 
vast energy resources, yet America energy production, both 
onshore and offshore, is declining. So, Mr. Secretary, I have 
to ask you very pointedly, what responsibility does the 
President, and you, as Secretary of the Interior, take for 
these rising gas prices?
    Secretary Salazar. Chairman Hastings, we are very well 
aware of what is happening in the world relative to rising fuel 
prices and very well aware of our responsibility here in the 
United States and we are watching the situation very carefully. 
I would respectfully, Chairman Hastings, disagree with your 
characterization of what we have done in this Administration 
with respect to our energy portfolio. We are strongly 
supportive of a comprehensive energy portfolio that does 
include, yes, clean energy and renewable energy, but at the 
same time, oil and gas. I think if you will take a frank and 
honest look, and I would ask both Republicans and Democrats on 
this Committee to take an honest look at what we have done over 
the last two years, you would find the fact that we have done 
some things that I think are moving us in the right direction 
where there is agreement. Let me just point out, if I may, two 
or three facts.
    Since 2008, our oil and natural gas production has 
increased while imports of foreign oil have decreased. That may 
be surprising to you, but we have taken our imports from 60 
percent in the 2004, 2008 time period to 50 percent in 2010. 
That is a significant reduction in the importing of foreign 
oil. We have increased more than a third the number of barrels 
of oil that are being produced from the Outer Continental Shelf 
to 600 million barrels of oil. Oil production on the onshore, 
and I know many of you from the West are concerned about the 
onshore, has increased five percent during that same timeframe. 
We have expanded, Chairman Hastings, the amount of public land 
and Federal waters that are available for oil and gas 
production. Just in 2010, and I know there is criticism about 
what we have done in 2010, but the BLM held 29 oil and gas 
lease sales for public lands, and, as a result of that, we have 
41 million acres of public lands that are leased for oil and 
gas development.
    The Chairman. Mr. Secretary, I only have a minute here and 
I do want to follow-up, and while those figures are there, and, 
frankly, I think they are basis for dispute, but nevertheless, 
I appreciate your answer, let me be more very, very specific 
then. What specific actions would the Administration take if 
gasoline gets to $4 or $5 a gallon? What specific actions would 
the Administration take?
    Secretary Salazar. We are looking at a number of different 
things and there are no options that have been ruled out. In 
terms of enhancing production from our domestic resources, we 
have moved forward in the Gulf of Mexico, notwithstanding the 
fact that we had to deal with the Deepwater Horizon tragedy, 
and have permitted 37 wells in the shallow waters of the Gulf 
of Mexico. Production in the Gulf of Mexico has remained robust 
throughout the last year, even after the Deepwater Horizon, and 
just on Monday of this week we permitted the first of the 
deepwater wells, which is a very deep well, and there are more 
of those to come.
    The Chairman. Thank you very much. Listen, I just want to 
say in conclusion that we believe, I certainly believe, more 
production is part of the answer to that, and to the extent 
that you are willing, the Administration is willing to do that, 
you will find an ally with us. I respectfully disagree, and we 
can discuss this in the future, that that has been the action. 
So my time has expired and I recognize the distinguished 
Ranking Member.
    Mr. Markey. I thank you so much. The most immediate thing 
that can be done is to deploy the strategic petroleum reserve. 
We have more than 700 million barrels of oil in the strategic 
petroleum reserve. It has been used in the past, we know it is 
very effective, and I think when we do reach that crisis point, 
I think it should be a weapon which we use in order to make 
sure that this uprising in the Middle East does not have a 
catastrophic impact on our own economy. We have enough to 
protect us against those kind of impacts. Mr. Secretary, you 
are requesting a budget of $12.2 billion for the coming fiscal 
year, but you are proposing to return $14.1 billion in revenue 
to the United States Treasury during that same time, and you 
have requested legislative changes that if enacted would 
generate an additional $2.5 billion for American taxpayers, so 
if the Congress simply did what you have proposed in your 
budget, your agency would actually generate nearly $4.5 billion 
in a surplus next year that could be used to reduce the 
deficit.
    Now, one of your proposed reforms is the establishment of a 
fee on nonproducing oil and gas leases in order to encourage 
energy companies to produce more oil and gas and increase the 
revenue reflected by the Federal government. Today, 
Representative Holt and I will be introducing legislation to 
establish just such an escalating fee on the tens of millions 
of acres of public land that oil companies have under lease but 
on which they are not producing. Would you support 
congressional action to establish a fee on nonproducing oil and 
gas leases?
    Secretary Salazar. The answer to that is yes, Congressman 
Markey, and it is part of the President's budget. Onshore 
acreage, we have 41.2 million acres of land that we have leased 
for oil and gas production, but we only have 12.2 million that 
is currently producing. Offshore acreage, 38 million acres that 
we have subjected to leases which are leased, only 6.3 million 
acres of those are producing. So we would be happy to work with 
you on the specifics of the legislation knowing that when we 
talk about diligence it is going to be important that it just 
not be a direct requirement, but that we recognize that there 
are companies that are out there diligently attempting to 
develop their leases and that has to be recognized.
    Mr. Markey. Thank you. Earlier this week The New York Times 
reported that wastewater from hydraulically fractured wells in 
Pennsylvania and West Virginia have been sent to sewage plants 
that are not able to remove the radioactive radium from it even 
though these levels could be as high as 2,000 times the EPA's 
drinking water standards. The radioactive water was then 
released into waterways at times within a mile of drinking 
water intake locations. Are you examining the manner in which 
drilling wastes are being managed on Federal lands and ensuring 
that similar problems do not exist there?
    Secretary Salazar. Yes, and Deputy Secretary David Hayes 
pulled together a forum on hydraulic fracturing, so if I could 
have him answer that just for a minute. Thank you, Committee 
Member Markey.
    Mr. Markey. Yes.
    Mr. Hayes. Congressman Markey, we are working with EPA. 
EPA, of course, has the primary jurisdiction over water 
quality. They have a study that they have under way. We are 
talking with the industry about the Federal lands. As you know, 
the Federal estate in terms of gas shale is a small percentage 
of the overall resource, perhaps 15 percent, but we are looking 
to make sure that the operators on public lands are not using 
hydraulic fracturing in a way that is harmful to the 
environment.
    Mr. Markey. I think that is very important. I think the 
public really wants this to be resolved in a way in which the 
water which people are drinking is not contaminated by those 
processes. By the way, I want to congratulate you on the 
announcement that you made here about the 10,000 megawatts of 
new permitting for renewable energy resources on public lands. 
I think that is a huge step forward, building upon what you 
have already done in the past. In the last Administration there 
were no solar permits granted on public lands and only four 
permits for wind energy on public lands. I just think we have 
to open this thing up very broadly. It is a vast expanse, as 
you were saying, 20 percent of the land mass of our country, 
and just tremendous potential, especially off of our coastlines 
as well. The GAO issued a report earlier this week which 
concluded that the American people may not be getting a fair 
return on Federal oil and gas resources, oil companies are 
drilling for free on public land in the Gulf of Mexico. What 
reforms are you putting in place to ensure that American 
taxpayers receive the billions of dollars which they are owed 
by the oil industry?
    The Chairman. Fifteen seconds, Mr. Secretary. We are over 
time here.
    Secretary Salazar. Representative Markey, we are working 
very hard in implementing the recommendations from the GAO. 
Many of those have already been implemented and we actually 
have a study underway in BLM to understand how it is that we 
might be able to better improve to make sure that the American 
taxpayer gets a fair return on the property that is being 
leased to oil and gas companies.
    Mr. Markey. Thank you for your service, Mr. Secretary.
    The Chairman. The time of the gentleman has expired. The 
gentleman from Tennessee, Mr. Duncan, is recognized for five 
minutes.
    Mr. Duncan of Tennessee. Thank you very much, Mr. Chairman. 
I first want to say that I second everything that you have said 
in your opening statement, especially about land purchases. The 
Federal government now owns or controls 30 percent of the land 
in this country and state and local governments and quasi 
governmental agencies own another or control another 20 
percent, so you have already got half the land in some type of 
public ownership, and USA Today reported about three or four 
years ago on its front page one day that land trusts and 
conservancies, and there are over 2,000 of them, are purchasing 
land equivalent to half the size of the State of New Jersey 
every year. We are very rapidly doing away with private 
property in this country, making it much more expensive and 
harder for young families to buy homes.
    I am concerned also about the San Joaquin Valley even 
though I live in Tennessee because I have read that 
unemployment reached 40 percent there and it was helping drive 
up food prices all across the country. Then another USA Today 
story last week said that gas prices were going to go to $5 a 
gallon or higher. We have seen some evidence of sort of a 
recovery, but if we let gas prices go to $5 or $6 a gallon, it 
is going to really stop this recovery and maybe even throw us 
back into another recession and it is going to hurt a lot of 
poor and lower income and working people. It has been said many 
times we can't drill our way out of the problem, but I can tell 
you that if we would just start producing a little bit more, 
these other countries wouldn't be able to keep raising their 
prices as fast as they do.
    I have sat on this Committee for many years and I keep 
hearing about Teddy Roosevelt. Well, I can tell you, Teddy 
Roosevelt, the government at all levels didn't own nearly as 
much as high a percentage of the property as they do now and we 
didn't have nearly as many people, and so it is a little bit 
ridiculous to keep talking about Teddy Roosevelt because I 
think he would be shocked at how much government land is owned 
today. Mr. Secretary, I want to ask you this. You heard the 
Chairman say that your budget would result in a $60 billion tax 
increase on the gas and oil industry. Assuming, or guessing, 
that you might disagree with that, what figure would you put on 
that as increased costs for the gas and oil industry? Because 
some of us are concerned that those will have to passed on to 
the consumer.
    Secretary Salazar. Congressman Duncan, that number is not 
one that I am aware of. Indeed, when you look at the entire 
budget of the Department of the Interior, that vastly exceeds a 
number of the budget. We are proposing in the President's 
budget is that industry pay its weight in terms of inspection 
and regulation, both offshore as well as onshore, and that is 
reflected in the requests that we have made with respect to the 
Bureau of Ocean Energy Management and Enforcement. If I may, 
wanted just to address two of the points you raised, one on 
conservation. I would like for all the members of the Committee 
to recognize that what we are attempting to do here is to move 
forward with a conservation agenda that is appropriate for the 
21st Century.
    We are not living in the days of Teddy Roosevelt, and we 
all recognize that, but if you look at one example where we 
have worked with Kansas and the government of Kansas, but also 
the Kansas Livestock Association, the Kansas Farm Bureau and so 
many others to preserve the 1.1 million acres of the last 
remaining tall grass prairie ecosystem through a national 
conservation effort which we announced about two months ago, 
that is an effort which will preserve the working landscapes 
and the ranches of the Flint Hills area for generations to 
come. Fourth, and fifth and sixth generation ranchers will be 
able to stay on those ranches. So we are not buying those 
places for government ownership. Those are conservation areas 
where through easements and management programs we will be able 
to manage that 1.1 million acres and then you and those for 
conservation. That is what you will see embedded in the way 
that we want to move forward. I could give you lots of other 
examples.
    Mr. Duncan of Tennessee. Well, I am about to run out of 
time but I will say we are causing a problem for state and 
local governments that when we take so much land off of the tax 
rolls at the same time the schools and the police are coming to 
us wanting more money, and I am concerned, also, as the 
Chairman said, about the fact that we have, that your 
Department keeps telling us they have such a huge, multibillion 
dollar maintenance backlog, and I think most of us on this side 
feel you should do more to take care of the property you have 
instead of buying additional properties. Thank you, Mr. 
Chairman.
    The Chairman. Time of the gentleman has expired. Chair 
recognizes the gentleman from Michigan, Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman. Mr. Secretary, your 
proposal includes focusing on seven initiatives for Fiscal Year 
2012. One of those areas is strengthening tribal nations. This 
is a follow-up on President Obama's commitment to Native 
Americans and Alaska Natives. Can you speak a little more about 
the importance of this initiative?
    Secretary Salazar. Congressman Kildee, we take the trust 
responsibility that we have for the United States in connection 
with the 564 tribes in the United States very seriously. 
Fulfilling that trust responsibility means paying attention to 
the issues that are being faced in reservations around the 
country, including addressing rampant violence and law and 
order issues on those reservations. So we have a robust program 
moving forward to deal with public safety on the reservations, 
we have a robust program moving forward to create educational 
opportunity for Native American children who live on those 
reservations through the more than 130 schools that we oversee, 
we are working with tribes to help them develop their economic 
ability, including the development of their natural resources 
in oil and gas and renewable energy resources on tribal 
reservations, so many of those things that are priorities to 
the President, to tribal nations and to the Department of the 
Interior are included in this budget.
    Mr. Kildee. I stood behind the President when he signed a 
bill to help reduce the violence on the Indian lands and saw 
his own sensitivity to the woman who spoke of how she had been 
treated violently. It was very touching because it came from 
his head, but from his heart, too. He really was concerned 
about that violence. I am glad that you and the President are 
working on that and that Congress passed some good legislation 
on that. Are you working on something to respond to the 
Carcieri decision of the U.S. Supreme Court?
    Secretary Salazar. Congressman Kildee, we are indeed, and 
David Hayes who has had the lead both on Cobell as well as 
Carcieri, I am going to have him quickly respond to that 
question.
    Mr. Hayes. Congressman, we continue to urge the Congress to 
pass a clean Carcieri fix to ensure that all tribes have the 
right to have land in trust. The President's budget explicitly 
requests that the Congress act in that regard.
    Mr. Kildee. I am glad to hear that. The House passed 
legislation last year, but that did not clear the Senate. Was 
that language basically in the right direction, the language 
that we used last year?
    Mr. Hayes. Yes, Congressman, and thank you for your 
leadership in that regard.
    Mr. Kildee. Thank you very much. I am encouraged by the 
fact that the Chairman has done a good job in trying to bring 
that to our attention again this year. We appreciate your 
cooperation over there. You have a special obligation to the 
Native Americans. When I talk to Native Americans, especially 
young ones, I tell them that I, for example, and you, too, Mr. 
Chairman, we have two types of citizenship. I am a citizen of 
the sovereign State of Michigan and I am a citizen of the 
United States. Those Native Americans I speak to I say you have 
a third citizenship based upon your sovereignty. You are a 
citizen of the Navajo Tribe, the Sault Ste Marie Tribe, and 
that is a very important citizenship. We have to be careful. I 
know you, under your leadership, Mr. Secretary, have done a 
very good job to make sure we don't slice away at that 
sovereignty. We will probably never come with a meat axe and 
try to do anything, but we have to be careful not to slice away 
a bit at their sovereignty. You have been very sensitive on 
that and I personally appreciate it. I yield back the balance 
of my time, Mr. Chairman.
    The Chairman. I thank the gentleman very much for yielding 
back. The Chair recognizes the gentleman from Utah, Mr. Bishop.
    Mr. Bishop. Secretary, thank you for coming here. This is 
an infrequent opportunity that we get to speak to you and I 
appreciate your willingness to do that. I have three quick 
questions for you. I will try and go through the first two as 
quickly as possible to give you maximum amount of time for the 
third one, if that is it. First question is, is there a line 
item in your proposed budget for the Wildlands Initiative? Just 
Yes or No. We couldn't find one.
    Secretary Salazar. No.
    Mr. Bishop. OK. That is smart thinking. Second one, on the 
RMP process, resource management plans, that were done in the 
State of Utah obviously averaged between six to eight years in 
doing so. They did the coordination mandated in FLPMA, which 
was not done for the wildland policy, in which talked to 
locally elected officials, as well as having public hearings. 
They spent two years specifically on wilderness studies for 
those public lands and the decision was 2.8 million acres in 
Utah that had some characteristics, 2.4 million did not have 
enough characteristics, but 400,000 did, to be managed for 
their wilderness characteristics. Your wildlands proposal 
overturns that, so unless you want to interpret that the 
professionals on the ground were wrong, which I would highly 
doubt, or that the process, which was correct, and the analysis 
was done by experts, what specifically about those RMP 
proposals is wrong in their answer? Their answer was 400,000. 
What was wrong in that answer? I want a specific, and very 
brief one, if you could.
    Secretary Salazar. If I may, Congressman Bishop, because I 
know you have a major concern on the wildlands policy and I 
think it is good, because of Utah being a great example to talk 
about this, I am going to have David Hayes who spent time in 
Vernal, Utah, and a number of different times, as have I, talk 
about how it applies to Utah.
    Mr. Bishop. Got to be specific for me. Mr. Hayes, 
specifically.
    Mr. Hayes. The issue, Congressman, is that the 2.4 million 
acres that have wilderness characteristics in Utah, the RMP 
process provided no guidance whatsoever to BLM, to industry or 
any party as to----
    Mr. Bishop. Mr. Hayes, let me go to the question.
    Mr. Hayes. Yes.
    Mr. Bishop. I am not talking about process. The process was 
done.
    Mr. Hayes. Yes.
    Mr. Bishop. What specifically about the answer was wrong? 
What was wrong with their answer?
    Mr. Hayes. There is no clarity in the RMPs about how to 
manage the 2.4 million acres that have wilderness 
characteristics. We are proposing to simply go back to that 
process and ask and answer that question through the RMP 
amendment process.
    Mr. Bishop. So what was wrong with their decision by the 
professionals on the field in what you called a rush to 
judgment?
    Mr. Hayes. The inventory was excellent.
    Mr. Bishop. OK.
    Mr. Hayes. It identified 2.4 million acres of wilderness 
characteristics and it provided no guidance to industry, to BLM 
folks or anyone as to how those lands could be----
    Mr. Bishop. So the answers of 2.4 without enough 
characteristics, that was accurate?
    Mr. Hayes. We think the inventory was good, was well done.
    Mr. Bishop. The 2.4 was the accurate answer?
    Mr. Hayes. The problem is that there was no guidance in the 
RMP for how those lands should be managed.
    Mr. Bishop. We are still only looking at 400,000 that 
potentially be guided as wilderness, managed as wilderness. You 
are not changing that.
    Mr. Hayes. No.
    Mr. Bishop. All right. Fine. Then there is no need for 
going through the process. Let me then go to the real one, Mr. 
Secretary.
    Mr. Hayes. No. No.
    Mr. Bishop. Thank you. You answered it. Let me try the real 
one, Mr. Secretary. You have received a great deal of 
congratulations for the management style of the Department of 
the Interior, often by people who aren't really impacted by it. 
I mean, the Ranking Member is a great person, but to be honest, 
he has to go on a road trip to find BLM land close to his home 
town. We have others that really still think of the West as 
their personal playground or as a nice backdrop for John Wayne 
movies. Mr. Grijalva once jokingly said that he wished his 
state had as much public land as my state. I agreed with him, 
but for different reasons. So it is true of all the public land 
that is owned and managed by the Department of the Interior, 93 
percent is found west of Denver, correct?
    Secretary Salazar. I am not sure of the number, but in 
general.
    Mr. Bishop. I am close. Four percent is found east of 
Denver. So the question I have to have, sir, especially after 
the wildlands proposal which has no statutory requirement to do 
it, nor, as we found out two days ago in our hearing, has a 
statutory authority to do so, then here is the question. These 
are the letters from the locally affected, locally elected 
officials in our state. Why is the overwhelming majority of 
locally elected officials, why is the overwhelming majority of 
elected Governors in the western states, which has 93 percent, 
and I am having to tell you the elected officials who are in 
Congress are not that crazy, too, why are they opposed to what 
you are trying to do? Why are the people directly impacted by 
these decisions are the ones who are complaining time and time 
again about your decisions? That is why I wanted to give you 
enough time to do that one.
    Secretary Salazar. Well, with 19 seconds left let me just 
say, Congressman Bishop, that I think there is a 
misunderstanding on your part and the part of many others with 
respect to the wildlands policy, and so we will communicate 
with the citizens of Utah, as well as with others, about the 
specific consequence of the BLM wildlands policy.
    Mr. Bishop. Mr. Secretary, that is a perfect thing to say 
and I appreciate you doing it. I just wish you had done it 
before you made the announcement.
    Secretary Salazar. Let me finish. First, it is very 
important for you to recognize that this is a requirement of 
the law. In fact, the Circuit Court of Appeals have recognized 
that this is a mandamus responsibility that we have in the 
Department of the Interior. Second of all, there is no acre 
that has been made or designated as wildlands, and we recognize 
that wilderness designation is ultimately an authority of the 
Congress. Third, that as we move forward with the RMP process 
and moving forward with how we manage public lands----
    The Chairman. Mr. Secretary?
    Secretary Salazar.--we will seek the local input of people 
to provide us guidance on how we move forward.
    The Chairman. Mr. Secretary and my friend from Utah, we are 
going to have more hearings on this. As was alluded to when we 
had the hearing earlier, we will pursue this. Thank you very 
much. Next I would recognize my colleague from Oregon, Mr. 
DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Thank you for being 
here, Mr. Secretary. I guess I would strike a little different 
tone and say that, you know, in my state, particularly with the 
problem that has been prevalent for more than 20 years through 
both, starting with the first Bush Administration, the Clinton 
Administration, the Bush Administration, and then extending 
into your tenure, we have been deadlocked on the management of 
some unique forest lands, the O&C lands in Oregon. I want to 
thank you for the individual attention that you have put into 
trying to help break that deadlock and I want to encourage you 
and your Department, and Mr. Hayes and others who are 
knowledgeable and working on this, to continue to move forward 
thoughtfully on these pilot projects where we can look at 
getting into our forests again, making them more healthy and 
removing a viable commercial product where appropriate.
    I just really want to thank you for that. I know it is 
tough budgetary times but if we break this gridlock there will 
be revenue for the government, revenue for my counties, there 
will be jobs, we will have healthier forests. I think these 
pilot projects for the first time in four administrations hold 
some promise of giving us a path forward. So I just, I wanted 
to set a little different tone because there are others who, 
you know, get different concerns that they want to raise with 
you. So thank you, and I, you know, really need to respond to 
that. You are doing a great job. I would like to go back to 
something the Chairman raised about Land and Water Conservation 
Funds. Now, my understanding is that there are no general fund 
dollars in the Land and Water Conservation Fund, is that 
correct? These are dedicated revenue sources that are channeled 
into LWCF.
    Secretary Salazar. That is correct.
    Mr. DeFazio. Yes. And right now under law those are 
required to be spent in a very limited way in terms of the 
acquisition of land to mitigate for other impacts elsewhere, 
depletion of resources elsewhere, or things that are desirable 
in terms of, you know, communities and Federal priorities, is 
that correct?
    Secretary Salazar. It is correct. The Land and Water 
Conservation Fund statute when it was written back in the 1960s 
provided guidance to where that money should go, but it 
ultimately, when you look at the United States of America, 
there have been land and water conservation projects in every 
single state of America. What I would say about that as well is 
that I think it is a kind of incentivization that has brought 
about much of the conservation legacy that we have today here 
in this country. I think, as you well know, Congressman 
DeFazio, it is a broken promise. Stewart Udall and Robert 
Kennedy, Henry Dime and others who worked on that back in the 
1960s really felt that it would be fully funded, and yet 50 
years and it has never been fully funded because although the 
money is credited in the Treasury to go into Land and Water 
Conservation Fund, only about half of the money has ever gone 
into Land and Water Conservation Fund. The rest has never 
reached the goal.
    Mr. DeFazio. Right. It is used as a phony deficit offset 
since the money can't legally be spent on general fund 
government activities, but we make, we on the books say, well, 
gee, there is $450 million less deficit because we didn't spend 
those on what is legally authorized. I am not familiar with, 
and I don't know if the Department keeps, but I know in my 
state we have a backlog of projects with willing sellers and 
community support, often county commissioners, city councils 
and others, hoping for land, water conservation acquisitions. 
Is there any sort of national list that you maintain? Because I 
imagine that most Members here aren't aware that they have 
communities or projects in their districts or their states 
where there is tremendous support where we just haven't made 
the money available because we are using it as a phony offset 
to make the deficit look smaller.
    Secretary Salazar. The answer to that is that these 
projects exist in every one of the states of the country and 
they are local and state projects, as well as some projects 
from our agencies. The National Park Service alone has about $2 
billion in terms of acquisitions, and some of them are 
expensive. Grand Teton. There are in holdings in the Grand 
Teton where we worked with the State of Wyoming to try to 
figure out how we could buy out some of those in holdings to 
preserve the Grand Tetons for the future, but the needs are 
huge. They are in the multi billions of dollars.
    Mr. DeFazio. So we could productively, with community and 
state support and tremendous consensus, spend these funds for 
their lawfully authorized purpose if we stopped using them as a 
phony budget offset, and that is what you are proposing this 
year.
    Secretary Salazar. Indeed, and I would offer this, too. If 
you want to put it into a historical context, in 1999 the House 
of Representatives actually passed what would have been a $3.2 
billion package that essentially would have funded most of the 
components of Land and Water Conservation Fund, and so coming 
in and looking at a $900 million request, which is the current 
authorized level, I think, in my view, is a humble and modest 
request given the need that is out there.
    Mr. DeFazio. Thank you. Thank you, Mr. Secretary. Thank 
you, Mr. Chairman.
    The Chairman. Time of the gentleman has expired. The Chair 
recognizes the gentleman from Colorado, Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman, and thank you for 
being here today, Mr. Salazar. Mr. Secretary, as you know, a 
number of environmental groups in Colorado and elsewhere have 
pressured you to cancel oil and gas leases that were signed and 
issued to the successful high bidders following BLM public 
auctions. You were asked about this issue during an interview 
you gave with the editorial board of the Grand Junction Daily 
Sentinel in August of 2009. You were quoted as saying that you 
would not withdraw, could not withdraw the Roan Plateau leases 
in Colorado because once these leases were signed, they 
provided the buyers with a property right that you and your 
agency were bound to protect. Since I have a short period of 
time, I would appreciate it if you could answer the following 
few questions with a yes or no. Do you still stand by this 
statement that you have made to the Grand Junction Daily 
Sentinel in 2009?
    Secretary Salazar. That statement was accurate then. It 
would be accurate today if those leases were, in fact, issued 
and signed.
    Mr. Lamborn. OK.
    Secretary Salazar. There is litigation on the Roan Plateau, 
Congressman Lamborn, and efforts to try to create a program 
forward that will allow the development of oil and gas on the 
Roan Plateau, but to do it with the best practices available 
from the oil and gas industry. Those have been part of the 
negotiations that have been underway.
    Mr. Lamborn. OK. And then, as Secretary of the Interior, do 
you and your agency, and I am assuming the answer is yes, but 
just to verify that you intend to protect the private property 
rights of companies that are holding Federal oil and gas leases 
that have been signed and issued.
    Secretary Salazar. The answer is we will protect private 
property rights and follow the law in terms of what the law 
requires us to do.
    Mr. Lamborn. OK. And are you aware that the Mineral Leasing 
Act requires the BLM to issue oil and gas leases within 60 days 
following payment by the successful high bidder of the 
remainder of the bonus bid, if any is owed, and the first 
year's annual rental?
    Secretary Salazar. I believe that there is language in the 
statutes that make those requirements, but I will also tell 
you, Congressman Lamborn, that most of the leases that have 
been issued frankly have been protested and gone into 
litigation, which essentially is what has caused, if you will, 
the backlog of much of the activity, and much of it happened 
because of the rush to judgment to lease everything, everywhere 
without approaching it in the way that we are approaching it, 
which is to be smart from the start. Once you are into 
litigation, you can point the specific statute out to me as 
many times as you can but you are not going to get a lease 
essentially that is going to get into production----
    Mr. Lamborn. I understand the Courts may interfere, as you 
point out, and tell you to do something. Yes. I am talking 
about activity by your Department separate from whatever a 
Court might say pursuant to litigation. So here is what I am 
concluding with. A local forest supervisor in Wyoming recently 
signed a record of decision in which she decided that the 
government should cancel oil and gas leases that have already 
been issued. Now, since BLM leases out Federal oil and gas 
resources underlying national forests, how and when do you 
intend to notify the Forest Service that the Department of the 
Interior cannot, and will not, cancel Federal oil and gas 
leases that have been issued for Forest Service parcels?
    Secretary Salazar. Congressman Lamborn, we will follow the 
law, but I think the results speak for themselves. I think in 
2010, the fact that we issued 5,200 leases in 2010, that we 
project that in 2011 we will issue 7,200 leases in the onshore, 
the fact that we have 41 million acres have already been leased 
out to oil and gas development, I think those statistics speak 
for themselves.
    Mr. Lamborn. Those are good statistics but in this instance 
we see a possibility that according to what one local forest 
supervisor in Wyoming would like to do, the result would be the 
cancellation of existing leases that have been issued. You told 
the Grand Junction Sentinel in another case, in the Roan 
Plateau case, that would be a violation of private property 
rights. Wouldn't that also apply here?
    Secretary Salazar. Congressman Lamborn, I would be happy to 
take a look at the specific case that you are referencing here 
and get back to you on the specifics. I don't have the 
information in front of me with respect to the specific case 
you speak about.
    Mr. Lamborn. Do you agree that that would be a violation 
of, apart from whatever a Court might say, that is a violation 
of private property rights?
    Secretary Salazar. I don't know. I will look into the case 
that you raise if you get that information to my staff and we 
will get back to you with the specifics of the particular case. 
I am not going to speculate based on this conversation and your 
questions here.
    Mr. Lamborn. OK. Thank you.
    The Chairman. Time of the gentleman has expired. I would 
ask, too, Mr. Secretary, because I know this will come up, 
other Members will have questions, and if you could respond in 
a very timely manner to those questions, that would be very, 
very helpful to us. I know that request has been made of you in 
the past. Chair recognizes the gentleman from American Samoa, 
Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I want to offer 
my personal congratulations for your attainment of the 
Chairmanship, Mr. Chairman, and also our Ranking Member of the 
Committee. Welcome to the Committee, Mr. Secretary. As the 
President's point man to care for our country's natural 
resources, I do want to commend you for your leadership and 
services to our nation. Mr. Secretary, on the eve of the 
current crisis in the Middle East, especially with oil 
producing countries like Libya, and I believe the Chairman has 
touched on this issue, the fear among the American consumers is 
that the price of gas may be going up as high as $5 a gallon by 
this summer. Is the Administration currently making contingency 
plans in anticipation of something as critical as this in terms 
of lessening the price of gas in the coming months?
    Secretary Salazar. Congressman, everything is on the table 
and everything is being looked at in terms of potential 
actions. The President has made it clear and many Members of 
Congress have made it clear that obviously working on the 
economy and standing this economy up is of highest priority for 
the American people, and obviously the price of fuel is one of 
those factors, and so every option will be looked at.
    Mr. Faleomavaega. Mr. Secretary, you perhaps more than 
anyone in the Administration has had a more in-depth 
understanding of the oil spill caused by the British Petroleum 
Company. Can I ask what was the total damage as a result of 
this oil spill? Because it has been months now. I don't know 
what the bottom line is in the cause of the oil spill. What is 
the total damage that was caused by the oil spill by British 
Petroleum, may I ask?
    Secretary Salazar. Congressman, those issues are still 
being evaluated. There is a natural resource damage assessment 
program which is underway which involves the five states of the 
Gulf Coast and the Department of the Interior, and the 
Department of Commerce and the Department of Justice, there are 
other issues that we are looking at, but it will be some time 
before there is a more exact calculation of the total amount of 
damage that was caused from the BP oil spill.
    Mr. Faleomavaega. All right. How is it that a foreign 
company, like British Petroleum, and I don't know if the media 
reports have been accurate of this, British Petroleum was found 
in violation of so many of the regulatory regulations, and yet 
ironically most of all our major American oil companies were in 
compliance with the oil spill, you know, standards, how is it 
that a foreign company, like British Petroleum, got away with 
all this?
    Secretary Salazar. My own view of that, Congressman, is 
that there was a complacency that included the U.S. Congress, 
Republican and Democratic Presidents and Secretaries of the 
Interior for a long time. The consequence of that was a lack of 
keeping up with the technology that was going into the deeper 
and deeper waters in the Gulf, and the consequence of that 
today, and the responsibility and duty, which I believe we all 
share both as an Administration and as a Congress, is to make 
sure that if our policy of the United States is to promote oil 
and gas development in the Outer Continental Shelf, which is a 
policy of this President and I am implementing that in the 
Department of the Interior, that we do it in a safe way that 
protects the environment and protects the people. That is why 
the budget that is in front of you that would fund the Bureau 
of Ocean Energy Management and Regulation is such an important 
component of our energy future for the country.
    Mr. Faleomavaega. In your opinion, has British Petroleum 
properly compensated the many small businesses, the people that 
were affected negatively by the oil spill?
    Secretary Salazar. Congressman, that process is underway. 
There is a claims process which is being executed and it is 
still far from being complete.
    Mr. Faleomavaega. I do want to commend my good friend from 
Michigan, as well as members of our Native American 
Congressional Caucus, for your successful negotiations not only 
of the Cobell issue, as well as the Carcieri. We are going to 
continue following this. I think my time is about up, Mr. 
Chairman. Thank you, Mr. Secretary.
    Secretary Salazar. Thank you, Congressman.
    The Chairman. Thank the gentleman. Had some time to yield 
back and I appreciate that. The gentleman from Virginia, Mr. 
Wittman, is recognized for five minutes.
    Mr. Wittman. Thank you, Mr. Chairman. Thank you, Mr. 
Salazar, Secretary Salazar, for joining us today. We appreciate 
this opportunity. Want to begin by letting you know my concerns 
about the Fiscal Year 2012 budget as it relates to domestic 
energy production. I think we need to do more there. I 
appreciate the efforts that are being put forth to promote wind 
energy in the mid-Atlantic, I think that is a critical part of 
this, but I also want to offer that I hope that you re-examine 
the cancellation of leases off of Virginia for oil and gas. I 
think those are critical and I know Virginia stands ready, 
willing and able to assist in making sure that we do all we can 
to get that energy production going off of our coast. Want to 
talk a little bit about the Chesapeake Bay Executive Order. As 
you know, the President signed that last year and that is an 
effort to restore habitat within the Chesapeake Bay.
    I wanted to ask you a couple of questions there. One is 
where is the Department of the Interior currently in 
implementing that particular Executive Order? Can you talk 
about the critical programs in your Fiscal Year 2012 budget 
recommendation that that would enhance the implementation of 
the President's Executive Order. I want to piggyback a little 
bit on that talking about the North American Wetlands 
Conservation Act funding. As you know, that is also a critical 
element of preserving habitat for migratory bird populations, 
and that does have a specific economic impact. Those wildlife-
related recreation in those areas generates about $120 billion 
a year and about 4,000 jobs, many of those in rural areas.
    In my district and throughout the State of Virginia, those 
are critical elements of what we are dealing with. As an avid 
water fowl hunter and a member of the Migratory Bird 
Conservation Commission, we all know how important those 
dollars are. I wanted to get you to comment about why these 
North American Wetlands Conservation Act funding dollars are 
important, and how is the funding there at that level leveraged 
with private dollars in order to set some of these lands aside 
and preserve these critical habitats both through purchase, but 
also more predominantly these days with conservation easement 
purchases.
    Secretary Salazar. Congressman, wait a minute. Let me first 
thank you for your service on the commission along with Senator 
Thad Cochran, and now Senator prior, and others who serve on 
that commission from the states, as well as the Department of 
the Interior. Let me say first on the Chesapeake Bay, there is 
a significant amount of money, I think $33.6 million, that is 
proposed in the President's budget for the Chesapeake. We do 
view as an Administration the Chesapeake Bay as being one of 
those landscapes of national significance for the country. We 
know there is a lot of work that needs to be done there. The 
National Park Service and the U.S. Fish and Wildlife Service 
are working closely with Virginia, with local communities, to 
try to identify how we can be helpful in terms of the 
restoration of the Chesapeake. It will remain a high priority 
for us.
    Finally, what I would just say to you I think in terms of 
the North American Wetlands Conservation Act funding, I think 
it is a great example of the kind of conservation effort that 
we need to embark upon, and it underlies the America's Great 
Outdoors and underpins the Land and Water Conservation Fund. 
Sitting with me in those committees over the last two years, 
often you have seen how much it is that we are able to leverage 
for wetlands, which are totally supported by the hunters and 
anglers of America and conservationists because there is a 
shortage of money, and so when we are able to put out a little 
bit of money through NAWCA funding, we are able to triple or 
quadruple the amount of money that comes in from Ducks 
Unlimited, and Trout Unlimited and state governments and so 
many others to really do a lot for conservation. So I think it 
is a good template.
    Mr. Wittman. Thank you. I think that is a great example of 
how we can take that source of income there and, as you said, 
leverage it in some pretty powerful ways and with partners who 
not only by themselves promote those efforts, but in 
conjunction with the government are out there making sure that 
we are preserving those critical habitats. Let me ask a little 
bit about the Land and Water Conservation Fund. The Fiscal Year 
2012 budget request obviously enhances some of that, but I 
wanted to get your thoughts on how those efforts are going to 
provide continued outdoor recreational activity access to 
folks, and specifically in districts like mine, where those 
activities are a critical part of the economies of many areas 
here in the United States. I just want to get your thoughts 
about how those dollars are there to promote and to enhance 
those activities.
    Secretary Salazar. Congressman Wittman, what we will do is 
to work very closely obviously with the states and with local 
governments and nongovernmental organizations to identify those 
places that are the economic generators of our communities in 
terms of outdoor recreations, whether those are urban parks in 
communities in Virginia, or whether it is the protection and 
restoration of wetlands which are important for hunters and for 
anglers, but that is where that money would go. The amount 
really that is needed for doing what would be an appropriate 
job for Land and Water Conservation Fund is in the billions of 
dollars, and indeed, I think some estimates are somewhere 
between $5 billion and $10 billion, and so the amount that we 
have requested here, the $900 million, which is essentially 
what is authorized under the law, I think is a good investment 
relative to moving the economics around. As I said earlier, 
when we think about it, it is, you know, 6.5 million jobs that 
are just created through the outdoor recreational activities, 
and this is according to the Outdoor Recreation Foundation.
    The Chairman. Time of the gentleman has expired. The 
gentleman from California, Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman, for holding 
this important hearing. Thank you, Mr. Secretary, for the good 
job that you are doing on a host of issues. You see me and of 
course you see water in California. Obviously, that is where I 
am going to focus my comments and questions. The Bay Delta 
Conservation Plan and the efforts that you folks are putting 
together are critical. If it is going to have any success and 
if the locals are going to continue to support it and 
participate financially, and the state, the consolidation and 
the efforts and the Federal participation is critical, and 
there has to be an end to the process. We have been processed 
to death on these issues for over a decade, and so I want to 
reiterate and get your quick response to the commitment on that 
Bay Delta Conservation Plan.
    Secretary Salazar. Congressman Costa, let me commit to you 
that we will continue to focus like a laser beam on the issues 
in the California Bay Delta. We appreciate your leadership and 
that of Congresswoman Napolitano and so many others who have 
helped on that effort. I want David Hayes, because he is 
leading this effort on the BDCP, to quickly give you a quick 
update on what we are doing on the Bay Delta Conservation Plan.
    Mr. Costa. Quickly, because I want to get back to the San 
Joaquin River and water allocations this year. Quickly, David.
    Mr. Hayes. I will be very quick, Congressman. We are 
working very closely with the new Administration in California. 
This is a state driven process. We are full partners with the 
new resources secretary, John Laird, and Jerry Merrill, who is 
in charge of this for the Governor, and we will look forward to 
working with you and other members of the California Delegation 
as we move forward.
    Mr. Costa. Mr. Secretary, I provided you a letter on 
February 18 and actually hand delivered it as well when I saw 
you in the Valley last week. Thank you again for your 
participation at that historic dedication. In the letter we 
talked about a number of issues with regards to interim 
projects. Give credit where credit is due. We had difficulty 
two years ago on getting administrative flexibility in the 
operation of the project south of the Delta. Last year you came 
forward and did so. As a result, we got a 50 percent water 
allocation, we got $54 million in local projects, we got the 
construction of the Intertie Project that had been delayed for 
almost two decades. It is under construction, it will mean 
35,000 acre-feet of additional yield, so I want to credit you 
on those points.
    Today we have a situation where a number of districts are 
at 100 percent of their allocation, and I commend that we did 
an early announcement at 50 percent, but we have continued to 
get rain this week and more snow in the mountains and it just 
seems to me before the new reductions kick in on April 1 and 
May that could provide additional allocation above 50 percent 
on the San Louis unit, that we need to take action. Mr. Connor 
said yesterday he is working on that. Is the issue within the 
Department of the Interior or Department of Commerce with NOAA 
as it relates to that specific flexibility?
    Secretary Salazar. Let me see if David knows the answer to 
that question. I would just say to you that we have spent a 
huge amount of our time working on a number of the projects 
that you spoke about, and also dealing with improving how we 
are projecting the water availability to the agricultural 
community.
    Mr. Costa. And that is important. You, as a farmer, know 
you make plans in February and March and you talk to your 
bankers, and if we are talking about May and June, forget about 
it because it is not going to do any good.
    Secretary Salazar. As a direct result of that and our 
conversations of last year, that is why we have the kind of, I 
hope, a better timeliness relative to giving farmers that kind 
of direction. On the specific question, David, do you have the 
answer to the Congressman?
    Mr. Hayes. Yes, Congressman. Last week, as you know, we had 
a collaborative settlement of the litigation surrounding the 
occupation of the system for the balance of this year. The 
water users came together with the environmental groups, with 
the state and with us, and together we agreed on how to operate 
to maximize how much water can be available through the next 
few months. That, together with the wet winter puts us in an 
extraordinarily good position in California. Also, that 
settlement, I think, demonstrated that everyone is working 
together here to reach a long term solution, which of course is 
what the Bay Delta Conservation Plan is all about.
    Mr. Costa. Right. Quickly, before my time is up, there have 
been damages on third party agreements on the San Joaquin River 
settlement agreement. What efforts are you going to make to 
respond to those damages by third parties? I know you are 
familiar with it. Also, the timelines on the restoration. They 
are important, but, you know, Mr. Garamendi and I have 
discussed there are problems on channel clearing and all sorts 
of stuff that needs to be done, has to be paid for before we 
can even begin to talk about reintroduction of Salmon on 2013, 
that timeline. My time has expired, but I don't know, Mr. 
Chairman, if you will allow him to answer the question.
    The Chairman. I would prefer to try to keep this going, 
but, Mr. Secretary, if you would respond to Mr. Costa in 
writing, and Mr. Hayes, that would be very, very beneficial. 
Thank you for your consideration. Chair recognizes the 
gentleman from Colorado, Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. Mr. Secretary, 
welcome to the Committee and thanks for your service to our 
country. You know, I am very concerned about the overall 
economy. Having had four military overseas assignments in my 
career, four of which took me to the Middle East, I understand 
the instability there and its resulting impact potentially on 
oil prices and that unfortunately we are still reliant a lot on 
imported oil, and that, my concern is in this fragile recovery 
that we have right now, that a prolonged spike in oil prices 
will set this country back and will cause a double dip 
recession. I think that families in our home state and across 
the country are already feeling the effects of rising prices at 
the pump right now.
    I mean, if prices go north of $4, in Colorado go north of 
$5, that is not simply going to hurt families directly, but it 
is going to raise the transportation cost that is going to 
impact all of the goods that they buy from groceries to 
everything else. So I am very concerned that we are really 
going to be caught flat on our feet on this issue, and 
everything you talked about today is going to raise the cost of 
oil and natural gas in the United States to the consumers. I 
understand that, you know, you have this new energy frontier 
that you are working on where you say that the Department's New 
Energy Frontier Initiative to create jobs reduces the nation's 
dependence on fossil fuels and oil imports, and reduce carbon 
impacts facilitating renewable energy development is a major 
component of this strategy, along with effective management of 
conventional energy programs, and so more solar projects, more 
wind projects.
    That is electrical generation and that doesn't impact 
really our foreign imports because those are primarily used as 
transportation fuels and manufacturing processes. So, you know, 
I am sure that the truth lies somewhere in the middle, but from 
what you are saying and what folks like the Western Energy 
Alliance are saying, the producers of oil and gas are two very 
different things and they seem to suggest that you are throwing 
up every bureaucratic obstacle that you can find to develop oil 
and gas in the United States. That is certainly their view. I 
think that they say a number of things in terms of the decline 
of oil and gas production on public lands, on shore in the 
United States.
    So one question that I have--you also talked about 
increasing fees on oil and gas development in order to pay for 
the regulatory burdens that they impose and you talk, in your 
statement you mentioned that the Department has made 
significant advances in its priority goal to increase approved 
capacity for renewable energy production on Interior lands by 
at least 10,000 megawatts by the end of 2012 while ensuring 
full environmental review, and then you go on and talk about, 
you know, how you are going to increase that production. I 
guess one question I have for you, and let me tell you, I am an 
all of the above person when it comes to energy strategy for 
this country, but are you going to require on the renewables 
side that they also pay the regulatory costs of the burdens 
that they impose as you do on oil and gas side?
    Secretary Salazar. Congressman Coffman, the basic principle 
that we have is that we want a fair return to the American 
taxpayer, and so that is what we will do with solar and other 
renewable energy projects as well. I appreciate the fact that 
you are supportive of an all of the above kind of energy kind 
of program, and I appreciate your service to our country. Our 
own view of this, the President's view and my view, is we need 
to have a robust domestic production. We also need to embrace 
alternative energy, including nuclear, and clean coal, and 
solar, and wind and geothermal, and we also need to embrace 
efficiency. Indeed, some of the efficiency measures that we now 
have with the higher CAFE standards are saving a significant 
amount of energy that we are importing into this country, and 
so, frankly, I think there is in this area of energy and the 
energy future for America a place where there may be an 
opportunity to find common ground between the Republican 
majority in the House of Representatives and the 
Administration.
    The Chairman. Time of the gentleman has expired. Gentleman 
from New Jersey, Mr. Holt, is recognized for five minutes.
    Mr. Holt. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary. I am sure some days it doesn't seem that you have 
such an exhilarating job, but you have a wonderful opportunity 
to show the common ground between a vibrant economy and 
environmental protection and I thank you for how you are doing 
it. Earlier this week, as Mr. Markey pointed out, The New York 
Times had a series of articles about gas drilling and they 
reported that in 2009 Wyoming failed to meet air quality 
standards for the first time in history and that one county in 
Wyoming with a population of less than 10,000 people but with 
one of the highest concentrations of drilling wells experienced 
ozone levels that were higher than those found in Houston or 
Los Angeles. Now, as part of the environmental assessment and 
permitting process does the Department of the Interior require 
monitoring or limitations on emissions from drilling activities 
on Federal lands?
    Secretary Salazar. The answer to that is Yes, and we are 
aware of some of the challenges that we face.
    Mr. Holt. So you do require monitoring, and you do require 
limitations on those emissions.
    Secretary Salazar. On emissions, yes.
    Mr. Holt. OK. Do you have sufficient statutory authority to 
do what you think needs to be done?
    Secretary Salazar. Let me have David Hayes answer part of 
the question.
    Mr. Holt. OK.
    Mr. Hayes. Congressman, you are pointing out a very serious 
and important issue that is affecting a lot of folks, the air 
quality in some areas in Utah, Colorado and the four corners 
area generally. We are working with EPA to address monitoring 
needs in the area. BLM also has underway an examination of 
fugitive emissions to help reduce those emissions. We think we 
have the current authority required to help tighten up fugitive 
emissions and to reduce ozone-forming releases.
    Mr. Holt. I hope you will report to me in more detail in 
writing of kind of what you are doing in those areas. There has 
been a lot of talk in the past year about standards for safety 
for offshore drilling. Has the Department revised its onshore 
regulations to make sure that the best practices are being 
observed? There are some new techniques, in particular, 
hydraulic fracturing, that are rapidly gaining prevalence in 
the industry. Has the DOI revised the regulations for best 
practice?
    Secretary Salazar. We have had a number of revisions to 
regulations trying to move forward with an onshore domestic 
production program that is efficient. We are looking at ways in 
which we can improve that beyond where we are today, and we 
know that there are companies out there that are very involved 
in best practices kinds of programs, including in hydraulic 
fracturing.
    Mr. Holt. When were the regulations last updated?
    Secretary Salazar. It depends on which specific regulations 
you are speaking about.
    Mr. Holt. Well, when were any new regulations promulgated 
for onshore gas extraction?
    Secretary Salazar. We have had a number of regulations that 
we have issued, including some this year, with respect to 
master leasing programs for oil and gas so that we can have a 
better way and a more understandable way of how we are going 
about our leasing programs in the onshore and those rules were 
promulgated within the last year.
    Mr. Holt. OK. Thanks. I will look forward to a fuller 
discussion of that also because it is a rapidly developing 
field and companies, producers, are learning a lot and I think 
we want to make sure that is reflected in any of the 
regulations that the government promulgates. I think with the 
limited time I will skip my next question but I just wanted to 
express my interest in your pursuing the idea of acquiring 
ongoing royalties for licensed areas that are not used in 
production. We have talked about that earlier this morning with 
Mr. Markey. I think it is only fair to taxpayers. It is not an 
undue burden on the producers, and I think it is something we 
really should move forward with. Thank you.
    The Chairman. Time of the gentleman has expired. The 
gentleman from Louisiana, Mr. Fleming, is recognized for five 
minutes.
    Mr. Fleming. Thank you, Mr. Chairman. Mr. Secretary, I 
represent the 4th District of Louisiana. I want to lay the 
foundation for my question here and it revolves around the Deep 
Horizon incident. First we had the spill, then we had a 
moratorium despite the fact that the President's hand picked 
counsel recommended against it, then we had a de facto 
moratorium, and then we had a contempt of Court as a result of 
that, and I do want to quote the Judge, Judge Feldman, on that. 
He says, ``The government continually reaffirmed its intention 
and resolve to restore the moratorium. It even notified 
operators that though a preliminary injunction had issued, they 
could quickly expect a new moratorium.'' He went on to say that 
there was clear and convincing evidence of the government's 
contempt of this Court's preliminary injunction.
    It is kind of interesting because I know a lot of times, 
and you have testified before us before that you use following 
the law and court orders as the defense of your position, but 
it appears to me, and I will let you respond in a minute, that 
there is often selective enforcement. Finally, after the 
contempt was issued, we got one token permit. Now here is what 
the results have been so far. Loss of 20 percent of our 
deepwater rigs, we have 33 shallow-water rigs that are stacked 
which was not even part of the incident to begin with, Seahawk 
Drilling, a major player, has now filed bankruptcy, and we have 
thousands of good jobs now of very fine Louisiana citizens that 
have been lost, but the impact is worse than that.
    In a time when we are not doing anything in ANWR, at a time 
when hydrofracking is under attack, we have an estimate from 
the American Petroleum Institute that as much as 680,000 
barrels of oil equivalent Gulf production a day could be at 
risk in 2019, that is to say if we don't get back to drilling 
in the deep water we are going to find ourselves by 2019, the 
equivalent of 12 percent of the total U.S. current production 
being lost. So the impact is very significant and we well can't 
really, in a time of a terrible economy and gas prices going up 
very quickly, we well cannot really I think afford this. 
Finally, those six rigs that have left the area now, they have 
gone to countries like Brazil and Egypt where the regulations 
and the oversight are much less than they are here.
    So my question is this. Considering all of those points, 
isn't this really an overall policy by the Administration to 
allow gas prices to go up, to allow energy prices, fossil 
fuels, to go up by constricting fossil fuel production in order 
to allow alternative fuels, which are not really cutting it in 
the marketplace, to allow those prices to come in parity and 
become more competitive? We have had, in fact, some testimony 
to suggest that, and, in fact, Steven Chu, Obama's Energy 
Secretary, said that a gradual increase in gasoline taxes could 
coax customers into dumping their gas guzzlers and finding 
homes closer to where they work, suggesting that it could be 
actually a positive thing to see gas prices go up. So is this, 
sir, really attempt in order to drive the prices up so 
alternative fuels will be more competitive?
    Secretary Salazar. Congressman Fleming, with all due 
respect, I disagree with your characterization and your 
foundation, and the fact of the matter is that we have moved 
forward with drilling, both onshore and offshore. We have 
issued 37 shallow water permits. Indeed, your numbers are wrong 
relative to what is happening with rig activity in the Gulf of 
Mexico. In 2009, there were 116 rigs in the Gulf of Mexico, in 
2010, February, 120, in February 2011 it is 126. You should ask 
the question why is the number of rigs going up in the Gulf of 
Mexico? The fact of the matter is that people are aware, we are 
aware at the Department of the Interior, this Congress is 
aware, that there are significant oil and gas resources within 
the Gulf of Mexico. It is a policy of this Administration to 
explore and to develop that oil and gas as we have been doing 
over the last several years.
    Mr. Fleming. Well, of course we can quibble over the 
numbers, but the point is, at least from what we are seeing 
there, perhaps there are other things that organically were 
increasing underneath, but we are definitely seeing at least 
off the Coast of Louisiana a substantial decrease in new rig 
activity and without any real justification. With that, I yield 
back, sir.
    The Chairman. Time of the gentleman has expired.
    Secretary Salazar. The statistics, Mr. Congressman, are 
absolutely wrong. When you look at the production within the 
Gulf of Mexico, even in the midst of the national crisis of the 
Deepwater Horizon, the production has remained at an all time 
high and we expect that it will continue as we bring new 
production on line.
    The Chairman. This will clearly be a matter that will be 
pursued, I am sure. The gentleman from Northern Marianas, Mr. 
Sablan, is recognized for five minutes.
    Mr. Sablan. Thank you very much, Mr. Chairman, and thank 
you, Secretary Salazar, for your service to the country and for 
the attention that you and your Department, especially the 
Office of Insular Affairs, the attention they give to the 
territories, and in particular, the Northern Mariana Islands. 
We had a hearing yesterday and so there are issues that I 
brought up there that we will continue to pursue. I would like 
for you to know so, Mr. Secretary, that I do have some very 
serious concerns with the President's proposal, including the 
language that the CIP money, which is under Title Covenant 702, 
CIP money, which started 100 percent for the Northern Mariana 
Islands in the past 33 years, because we had no representation 
here kept getting shaved away.
    We are now two-thirds--doesn't come to the Northern Mariana 
Islands. Now there is some language there that proposes it 
could eventually erase it entirely for the Northern Mariana 
Islands. I will be working with the Assistant Secretary on 
trying to fix that situation, but I think I object to that. 
Having said that, also, Mr. Secretary, as you know, I come from 
a district 14 islands and where gasoline is approaching $5 a 
gallon, electricity is over 40 cents a kilowatt hour, people 
make the lowest minimum wage in the country, and from a 
territory whose GDP has decreased by over four percent in the 
last report that came out, I am concerned, sir, that the 
President's budget is requesting for a decrease in money for 
assistance to the territories or that some of the monies being 
provided is going to fund the military viewed upon Guam when we 
have no idea when the first boots are going to land.
    We are going to buy money for public safety equipment to 
prepare for that eventuality, and we are, respectfully, sir, 
where I come from, we only have three patrol cars that is 
running and crime continues to increase, so I am going to need 
your help on that. Again, I will also in all fairness thank 
you, sir, and the attention that we, the Northern Mariana 
Islands, continues to receive from your Department continues to 
get better. We need to do more, but it continues to get better. 
I also would like to bring to your attention, and I brought 
this up to Director Gould yesterday, where, the issue of the 
Mariana Straits marine monument. There is no thought of that in 
the Fiscal Year 2012 budget, but maybe in future budgets we 
would have some movement on that because this is an area that 
is almost the size of Arizona and we, it is a great proposal I 
think, you know? It is going to be conserved. Three island 
units are involved in this and we need to eventually look at 
how to approach this and move forward with some of the promises 
that was made by the White House during negotiations for the 
establishment of this monument. Otherwise, Mr. Secretary, thank 
you very much for all that you do, sir.
    Secretary Salazar. Thank you very much, Congressman, and 
thank you for bringing the attention to us on the issues of the 
territories and the islands. It is part of the jurisdiction of 
Interior and we take it very seriously. Assistant Secretary 
Lovato is working on all of the issues which you raised and we 
will continue to try to make sure that we are honoring the 
partnership and the historic relationship that we have had with 
the Mariana Islands.
    Mr. Sablan. Thank you.
    The Chairman. Gentleman yields back? Appreciate that very 
much. Gentleman from California, Mr. McClintock, is recognized 
for five minutes.
    Mr. McClintock. Thank you, Mr. Chairman. Mr. Secretary, 
welcome. The Gulf oil disaster, as you have already testified, 
and its aftermath have been economically devastating to the 
region, and, for that matter, to the country. Ultimately, that 
disaster was caused by the catastrophic mechanical failure of 
the blowout preventer stack. This Committee received the report 
of the Graham Commission. I was astonished to learn that this 
Commission had not only not determined the cause of the BP 
stack preventer failure, but had not even bothered to look at 
the blowout preventer. Has this Administration yet determined 
the reason for the failure of the blowout preventer?
    Secretary Salazar. Well, the Deepwater Horizon and the 
Macondo well blowout was caused by problems relating to 
cementing, and casing and other issues that were very 
appropriately identified by the Deep Water----
    Mr. McClintock. Had the blowout preventer functioned 
properly, we would not have had the disaster, correct?
    Secretary Salazar. Let me finish the answer to my question. 
The blowout preventer is supposed to be the fail safe, which is 
a last resort to shut in a well.
    Mr. McClintock. And it failed. Have you yet determined the 
cause of that mechanical failure?
    Secretary Salazar. Congressman McClintock, there is a joint 
investigation that is underway, we are getting close to the 
very end of that investigation and there will be a report, and 
we will be happy to share that report with you.
    Mr. McClintock. Moving to wind and solar, don't we have to 
have a megawatt of reliable standby power for every megawatt of 
wind and solar that we place on line?
    Secretary Salazar. You know, the interruptability issues 
are a reality when you are dealing with wind and solar energy, 
of course, and that is part of what you deal with----
    Mr. McClintock. So the answer is yes, for every megawatt of 
wind or solar we put on line we also have to then have an 
additional megawatt of standby reliable power for those moments 
when the clouds pass over a solar array or the wind drops off, 
correct?
    Secretary Salazar. I don't have the information to argue 
with your statistics. I don't believe your statistics are 
correct, but I would be happy to look into them.
    Mr. McClintock. Well, it is an integrated grid. We have to 
constantly match the power being drawn off the grid with power 
being placed on the grid. Wind and solar are not reliable 
sources of power and we have to keep a megawatt of back up 
power for every megawatt of wind and solar. It is not that 
complicated a situation, but it is extremely expensive. My 
question is at a time of skyrocketing electricity prices, 
shouldn't we be focusing on the cheapest forms of electricity 
rather than subsidizing the most expensive, and that expensive 
forms of electricity generation that also have to include an 
additional back up supply.
    Secretary Salazar. Congressman McClintock, I respectfully 
disagree because I think as you look at one of the central 
issues, which is our national security, as well as our economic 
security here in the country, we need to develop multiple 
sources of energy, including the clean energy resources, many 
of which have been developed in your state. We are very hopeful 
that that will be part of the clean energy future of America. 
We are falling far behind where Germany, and Spain, and China 
and a lot of other countries are because we have not opened up 
the door to this new energy world that we have worked on----
    Mr. McClintock. Actually, photovoltaic technology was 
invented 175 years ago in 1836, and in 175 years of 
technological research and advancement have we yet invented a 
more expensive way of generating electricity?
    Secretary Salazar. There are a number of technologies that 
are underway, including a number of technologies which we are 
standing up with solar power plants that we have authorized in 
the deserts of the southwest.
    Mr. McClintock. So we are pouring untold billions of 
dollars, certainly hundreds of millions of dollars, into 
subsidies for the most expensive way that we have yet invented 
to produce electricity and have to require an additional back 
up supply to boot. Sir, with all due respect, I don't think 
that is an intelligent energy policy. If I could just move to 
land for a second. Is the Department still considering the 
Modoc Plateau for monument designation under the Antiquities 
Act?
    Secretary Salazar. The what plateau?
    Mr. McClintock. The Modoc Plateau in northeastern 
California.
    Secretary Salazar. Not to my knowledge. With all due 
respect, again, I think you are wrong on your energy policy and 
I don't think we can be living in an energy policy that is----
    Mr. McClintock. Yes, I understand we disagree on that. So 
the Department has no further plans to designate the Modoc 
Plateau as a monument under the Antiquities Act?
    Secretary Salazar. I don't have any specific information on 
that.
    Mr. McClintock. Last year in this Committee, you testified 
that you had the discretion to waive the Endangered Species Act 
when it came to unemployment caused by the Delta Smelt 
regulation but that by doing so it would be admitting failure. 
After all of the economic dislocation that has occurred in the 
valley, have you reconsidered that position?
    Secretary Salazar. Well, that is an incorrect statement of 
what I said, but I would be happy to take a look at it. The 
fact is that ESA issues are very difficult and very complex, 
and as members of the California Delegation, and Governor 
Schwarzenegger and others----
    The Chairman. Mr. Secretary, wait. Could I ask you to 
respond to that question in writing? Because we are out of time 
on that particular question.
    Secretary Salazar. Absolutely, Mr. Chairman.
    The Chairman. OK. Thank you very much. The gentlelady from 
Ohio is recognized for five minutes, Ms. Sutton.
    Ms. Sutton. Thank you, Mr. Chairman. Secretary Salazar, 
thank you for your testimony today. In my district I am proud 
to have the Cuyahoga Valley National Park. It is a large 
economic driver for our area with many communities benefitting 
directly from the success of the park. The Park Service in fact 
reported that in 2009 local spending at the park exceeded $50 
million and added nearly 600 local jobs. Likewise, Lake Erie is 
also an economic engine of my region and I noticed in your 
opening statement you had mentioned being the guardian of 
Americans' oceans and Americans' lands, but we cannot forget 
the great lakes. So Lake Erie, you know, an economic engine 
from manufacturing, to boating, to drinking water, the health 
of that lake is critically important to the people that I 
represent, and I think to our nation as a whole.
    Lake Erie supports nearly 10 percent of Ohio's jobs and 
generates $750 million in state and local taxes, so I am 
extremely concerned that the budget, your budget, calls for 
$125 million cut to the Great Lakes Restoration Initiative and 
I would like to have you talk a little bit more about that. I 
understand that funding is a critical issue for the future; 
however, Lake Erie supports so very many jobs and the Cuyahoga 
Valley is such an important economic asset, as well as natural 
asset, to our area. So my questions are this. I know that you 
are aware that the continuing resolution that the House passed 
two weeks ago decimated the funding for the Land and Water 
Conservation Fund, providing the lowest level of this funding 
since 1965. You visited the Cuyahoga Valley National Park in 
2009 so I know you are also familiar with the acquisition of 
land around the Blossom Music Center by the park, and that 
Blossom acquisition was funded through the appropriations 
process.
    The first piece in Fiscal Year 2010 and the second and 
final piece was in the original Fiscal Year 2011 budget, but 
there are no funds for this project in the Fiscal Year 2012 
budget because it was assumed that the project would be 
concluded with funds in Fiscal Year 2011. This funding is 
critical to the national park in our district and critical to 
that acquisition project. Can you talk a little bit about the 
consequences of the cuts to the LWCF funding and the House 
passed continuing resolution on the Blossom project, and then 
talk a little bit more about what the budget going forward will 
mean for parks like ours that, it is the only national park in 
Ohio, it is a rare gem in the middle of what people think of 
oftentimes as a very industrialized area, and if you could also 
just talk a little bit more about the Great Lakes Restoration 
initiative which has been so incredibly important to our 
region's broader strategy to create jobs. It has been conveyed 
to me repeatedly by communities throughout our area that it was 
that park that kept them going through these tough times.
    Secretary Salazar. Representative Sutton, I appreciate your 
energy and your enthusiasm for Cuyahoga National Park. It was 
my honor to be there and to help push along some of the 
renovations that are so important to that community, and I 
think you so eloquently hit the point in terms of the economic 
nexus between our outdoors and our national parks and local 
communities. Indeed, in most states when you think about 
tourism and the jobs that are created through tourism, it is a 
very significant part of our economy, and so as we deal with 
the difficult economic times of getting America back on solid 
economic footing, I think these kinds of investments are 
exactly appropriate. I am a strong supporter of the Blossom's 
expansion project there at Cuyahoga, as well as other 
improvements that we have there. I don't know the specifics on 
the budget with respect to Cuyahoga, but I would be happy to 
get back to you with that information. On the Great Lakes, if I 
may, because that was your other question, it is a signature 
landscape of the United States of America and I know how 
important it is to all of you in Ohio and to the states who 
share that. We have a major initiative interdepartmental where 
we are involved through a number of our different agencies at 
Interior and there is significant funding for the Great Lakes 
Initiative and we hope to be able to continue to make progress 
on the Great Lakes.
    Ms. Sutton. I thank you, Mr. Secretary, and I look forward 
to working with the Department to make sure that we are taking 
care of both the park and of course our Great Lakes. Thank you.
    The Chairman. Thank you. Time of the gentlelady has 
expired. The gentleman from South Carolina, Mr. Duncan.
    Mr. Duncan of South Carolina. Thank you, Mr. Chairman. 
Thank you, Secretary Salazar, for being here today. The events 
in the Middle East magnify the need for American energy 
independence. We have heard already this morning about the 
rising gas and fuel prices and the effect on the American 
economy. America is blessed with abundant resources. I have 
traveled all over the country, I have seen and visited national 
parks, wilderness areas and enjoy the outdoors, but the 
abundant resources I want to talk about this morning include 
oil and natural gas resources and what we have on Federal 
lands. We have seen the policies of this Administration 
continue to thwart the efforts for more domestic production at 
a time when we need it the most through policies such as the de 
facto moratorium on deepwater drilling permits being issued and 
the post-Deep Water Horizon era, as well as limitations on 
hydraulic fracturing, or fracking as its know.
    The new budget proposal proposes cutting, or ending, nearly 
$1 billion in existing programs such as those to fight wildland 
fires and economic development loans for Native Americans, 
shifting these funds to areas like increased land acquisitions 
and the controversial national ocean policy, as well as climate 
change adaption. There is $14 million in the proposal for New 
Energy Frontier Initiative which mandates increasing capacity 
for renewable energy production on Interior managed lands. In 
addition, the budge seeks $73 million for approval of wind, 
geothermal and solar projects on public lands, a $14 million 
increase over last year. American energy independence is a 
national security issue. We have the resources here in this 
country. A lot of the Federal land has been taken off the 
table.
    What I would like to hear from you this morning is the 
agency's opinion on increasing production of energy sources on 
Federal land, the de facto moratorium on offshore drilling 
permits and what is being done. I appreciate that one permit 
was issued this week and hopefully we will see more of those, 
but the de facto moratorium on issuing those permits, the 
expiring oil and natural gas leases that are affected by those 
guys not being able to get out there and go to work. What are 
we going to do about those leases? Are there going to be an 
extension on those? Because they have been prohibited from 
going to tap that. Then also future lease sales. If you could 
answer those questions for me.
    Secretary Salazar. Thank you, Congressman. We have moved 
forward, as I said in my opening statement, with a robust oil 
and gas and energy program, both onshore as well as offshore, 
both conventional as well as renewable. I am proud of the 
record that we have and disagree with the conclusions that you 
state. With respect to what we are doing to increase production 
onshore, as I said, we have issued 5,200 leases in 2010, we 
expect that there will be an additional 2,000 leases issued 
this next year. There are 40 million plus acres have been 
issued and are under lease for oil and gas development on the 
onshore. With respect to your second question on what you call 
the de facto moratorium, there is no moratorium. We are moving 
forward in a robust way to stand up oil and gas drilling. The 
policy of the President has been to move forward with the 
development of oil and gas in the Gulf of Mexico and in the 
deep waters.
    Mr. Duncan of South Carolina. Excuse me. Don't mean to 
interrupt you there, but by not issuing permits for those guys 
to get back out there and go to work even after they have met 
all the safety requirements in the post-Deep Horizon era is a 
de facto moratorium.
    Secretary Salazar. David Hayes and Michael Bromwich and I 
were in Houston on Friday and what we did was went out there to 
inspect firsthand what was going on with the oil spill 
containment mechanisms that are being built by both the Helix 
and the Marine Well Containment Corporation. As I said during 
that trip, and as I will say in front of this Committee, I am 
pleased with the progress that industry is making at dealing 
with the threat of another type of Macondo well blowout. There 
is still significant progress to be made, but it is on the 
basis of the oil spill containment, as well as the safety 
regulations that we have put into place for cementing, and 
casing, and third party inspection and a whole host of other 
things that we are now able to move forward with some assurance 
that we will be able to have safe drilling in the deep oceans 
of America.
    Mr. Duncan of South Carolina. In the remaining time could 
you address future lease sales for me?
    Secretary Salazar. We are very hopeful and we are pushing 
hard to be able to meet the requirements so that we can have a 
lease sale in the Gulf of Mexico yet this year.
    The Chairman. Time of the gentleman has expired. Gentlelady 
from Massachusetts, Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman, and thank you, 
Secretary Salazar. I would like to follow up on an issue that 
Congresswoman Sutton just raised. I think the Administration's 
request for full funding of the Land and Water Conservation 
Fund in Fiscal Year 2012 is a positive step forward in securing 
some of our nation's most sacred and historic places, but I am 
concerned, as was she, that the recently passed continuing 
resolution will put critical projects proposed for the current 
fiscal year at serious risk and that there will continue to be 
further aggressive steps to cut the LWCF. I am especially 
concerned that further cuts to the LWCF will eliminate funding 
for Minute Man National Historical Park's proposed acquisition 
of the Barrett Farmhouse.
    I am fortunate to represent that park located in Concord 
and Lexington. Recently there was legislation passed that 
brought the Barrett farm within the outlines of the Minutemen 
National Historic Park. This may seem like a very local issue 
but, in fact, Barrett's farm is an important piece of American 
Revolutionary War history. It was the farm at which the 
minutemen stored their munitions and when the British Army 
learned about that, it prompted their march on Lexington and 
Concord, and Paul Revere road to alert the minutemen that the 
British were coming, leading Col. Barrett and his colleagues to 
hide the munitions so that when the British arrived the 
munitions were not, they could not find them, and then led to 
the shot heard around the world. So it is a very important 
piece of American history.
    The cut in the LWCF really does put at risk the park's 
ability to acquire this farm for further preservation. It has 
been held over its many years by two families who finally made 
it available for the park to include it within their boundaries 
and now is in need of great restoration. So in addition to 
threatening Minutemen Park's capacity to acquire and preserve 
Barrett's farm, what other nationally significant places will 
be put at risk by the funds, the cuts that are being proposed 
in the continuing resolution should the LWCF not be fully 
funded in 2012?
    Secretary Salazar. Representative, there are projects like 
the one you speak about all over the United States of America 
that would be impacted, and the fact of the matter is that I 
think you hit the nail on the head, and that is that these 
investments are investments that create jobs here in America. 
There are tourists that come from throughout the world to visit 
places, like many of our revolutionary places, and there are 
people throughout the country that go to communities, from the 
west to your state, to all the states of the country, and it is 
part of the huge economic activity which is a sustainable job 
creation program here in the country, and so LWCF, in my view, 
has to be looked through that lens.
    Ms. Tsongas. Well, and the reality is also that it does 
have great economic benefit. We have heard the figures given, 
the way the tourism, the generation of jobs and all the other 
economic activity that it promote, but it also is a way in 
which we protect our past and there is nothing like visiting 
some of these spaces and places to have a deep appreciation of 
what we have accomplished as a nation. I am also fortunate to 
represent a historical national park in Lowell, Massachusetts. 
It is the first urban national park. The recently released 
Americas Great Outdoors report highlighted the importance of 
urban parks and community green spaces and stated that the 
establishment of urban parks was a priority of the initiative.
    Again, to address the issue of the economic development 
role of parks, not only did this park protect the cultural and 
historic legacy of a place that was the birthplace of the 
American Revolution, led to the preservation of architectural 
treasures, but it led to the revitalization of a city. Because 
of that steady stream of Federal funding that has come in, has 
really jump started significant investment through the private 
sector, through the nonprofit sector, through state and local 
initiatives that might not otherwise have taken place. So it 
played a critically important role. I would love to invite you 
to come visit it, especially as you undertake the American 
Great Outdoors Initiative, and encourage you to think about 
urban settings for those outdoors initiatives as well. Thank 
you, and I yield back.
    The Chairman. I thank the gentlelady for yielding back.
    Ms. Tsongas. But not if you are going to say you would come 
visit.
    Secretary Salazar. Lowell is one of the great examples of a 
great urban park. You find them at St. Louis with the arch 
where we have a great vision for what we can do there to 
connect up three million people to that park and that every 
community around the country frankly has those kinds of 
opportunities. So I will come to Lowell to illustrate what you 
have done at Lowell because we can do it everywhere else in the 
country as well.
    Ms. Tsongas. Thank you so much.
    The Chairman. I take that as being a yes.
    Ms. Tsongas. I take it as a yes, too. Thank you so much.
    The Chairman. Gentleman from Colorado, Mr. Tipton, is 
recognized for five minutes.
    Mr. Tipton. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being here. We come from common areas. My third 
congressional district has your ancestral home over on San 
Louis Valley, and I just completed a tour, my third, throughout 
the third CD since being elected. We have a lot of challenges 
that we face. On the western slope of Colorado better than 70 
percent of our property is either Federal, state or tribal 
lands. Going through and visiting in our district, we have 
multiple issues that people are concerned about. The wildlands 
policy. There was great offense and concern that there were no 
public hearings that were held in terms of addressing some of 
these issues. We have in Mesa County, the county that had the 
highest per capita unemployment at one point last year in the 
entire United States, relies an awful lot on the development, 
responsible development, of our natural resources in the third 
congressional district to be able to benefit America.
    We also have a lot of senior citizens, young families, that 
are struggling right now to be able to pay their bills and they 
are seeing regulatory tax increases that are coming through 
from policies out of the Federal government that are impacting 
those electric bills, their ability to be able to meet their 
families' needs. So I appreciate you taking the time to be here 
today and have just a few questions that I would like to be 
able to hear some of your thoughts on. First of all, in regards 
to some of the wildlands issues that we are going through, I 
did visit with ranchers, the oil and gas industry, local 
governments, the mineral industry, motorized recreational 
users, and they have all voiced strong opposition to the 
wildlands policy that is coming out. I just wanted to question 
you. Did you give a directive out to the BLM officials in the 
various districts, say in the third congressional district, to 
reach out to these groups prior to developing this concept?
    Secretary Salazar. We have been in significant 
communications with affected communities and those 
communications will continue. I think it would be useful for 
you, Congressman Tipton, maybe to hear from David Hayes who has 
been helping in the development of this policy and its 
implementation for just a minute or so. David?
    Mr. Hayes. Congressman, fundamental to the policy is in 
fact that no wildlands will be identified until there is a 
robust discussion at the local and state level through the 
amendment process, or if there are special projects proposed 
through a special discussion. So there has been a fundamental 
misunderstanding along those lines, but the----
    Mr. Tipton. Great. Mr. Hayes, I apologize, but we are kind 
of short on time. I did visit with the field office and one of 
the concerns I think we had is seeing an industry that is 
trying to be able to create jobs, trying to meet America's 
energy needs and one of the problems that they are facing right 
now, some of the new technologies to be able to do some of the 
lateral drilling. Under the wildlands policy they are already 
without public input, they are already enforcing policy that, 
no, we aren't going to allow you to drill underneath those 
public lands to be able to extract that natural resource, never 
disturbing the surface. So you might want to visit with some of 
your local folks because I think that whether or not nothing is 
supposed to be done at this point, it is starting already to be 
able to happen. If I may kind of move on here. When we were 
talking a little bit, and I apologize, I had to step out, when 
you were talking about doing a good job and getting a fair 
return for the American taxpayer, have you run a cost benefit 
analysis when we are increasing the budget by approximately $14 
million for some of the renewables going, I think the budget 
request now is about $73 million. Have you done a cost benefit 
analysis in terms of that return?
    Secretary Salazar. Congressman Tipton, we have not done, 
that I am aware of, a cost benefit analysis with respect to the 
investments in renewable energy. We have, and I am very proud 
of the fact that we have made significant progress in 
demonstrating the viability of wind, and solar and geothermal 
energies in many places, but in particular, in the southwestern 
part of the United States, and communities, for example, in 
Milford, Utah, where we have a huge wind project, and the 
potential solar project and transmission line, and there are 
places in Colorado as well that can benefit.
    Mr. Tipton. Great. Yes. And one thing, I think I would 
really encourage you to take a look at this, you know, because 
I think it is important in these tough economic times because I 
have literally walked the streets of Alamosa, of a lot of towns 
that a number of people here have not heard of, and people are 
struggling right now. Some of these costs, we need to do these 
cost benefit analyses because that will go to the electric 
bill. One of the problems we have also is some of the 
hydroelectric. We release in artificial floods out of the Glen 
Canyon Dam--I am sorry. We ran out of time. May I submit some 
questions to you?
    Secretary Salazar. Absolutely.
    Mr. Tipton. Appreciate that. Thanks.
    Secretary Salazar. Feel free to call me any time.
    The Chairman. Thank you very much. I appreciate the 
gentleman. His time has expired. The gentleman from New Mexico, 
Mr. Lujan.
    Mr. Lujan. Mr. Chairman, thank you very much. To Mr. 
Secretary Salazar and Deputy Secretary Hayes, I want to thank 
you for being here. You know, oftentimes, sometimes we can be 
tough with you, but we appreciate the compassion and the 
passion that you share for our nation, for the people and for 
the responsibilities that you have. I think sometimes we need 
to sit back and truly understand how we have to come together 
to work together as a team. In light of many of the things that 
have taken place across the country, that time is now, and we 
have to get there. So again, I appreciate your patience today, 
Mr. Secretary, and your indulgence. Mr. Chairman, I want to 
thank you again for holding this important hearing and for 
inviting Secretary Salazar and for the team to be with us 
today.
    New Mexico is a very special place with a very close 
connection to the Department of the Interior. Like many other 
states in the West, we rely on the support for projects from 
the Department of the Interior to make critical investments in 
rural and oftentimes disadvantaged areas. My district in New 
Mexico includes 15 pueblos, the Hickory Apache Nation and a 
portion of the Navajo Nation, two national forests, 
approximately 2.5 million acres of BLM land, two wildlife 
refuge, four Bureau of Reclamation dams and seven national 
parks and monuments. You can see this is important to me. So 
you can see how closely attached the Department of the Interior 
is to the people of New Mexico and to our public lands.
    Often the need for adequate funding within the Department 
of the Interior is clear and present in the daily lives of my 
constituents. The investments the Department of the Interior 
makes are critical to my state and our nation. As I said 
yesterday in our Subcommittee with the BOR, these investments 
strengthen the backbone of America by making resources 
available for economies to grow, and without them critical 
infrastructure resource management would be virtually 
nonexistent for the people of New Mexico, so the funding levels 
in the budget request for the 2012 fiscal cycle are important 
to maintain our public lands. Mr. Secretary, before I ask a few 
questions, and whatever I don't get to I am going to submit 
them for a response in writing, there has been a lot of 
discussion about the cost of oil today and I think that we all 
need to be aware of this because back home this is hurting 
people.
    It is going to drive up the cost of eggs, milk, bread, 
every part of everybody's life. There was a question that you 
were asked early on and your response included some information 
about where we were in the United States in 2010 and I was 
curious if you could please share that information with us 
again, if you can find it. One thing I want to point out is 
that, and I don't know if it has been talked about, Mr. 
Chairman, but in today's Financial Times there was an article 
that said that U.S. oil production last year rose to its 
highest level in almost a decade. As a result, analysts believe 
the U.S. was the largest contributor to the increase in global 
oil supplies last year, over 2009, and is on track to increase 
domestic production by 25 percent of the second half of the 
decade.
    According to the U.S. government's Energy Information 
Administration, domestic production of crude oil and related 
liquids rose three percent last year to an average of 7.51 
million barrels a day, its highest level since 2002. I think 
that there are some options that we have, Mr. Secretary. I know 
that Senator Binghamton, along with Chairman Markey, have asked 
for the President to consider using strategic oil reserves, and 
I think that is something that we need to take seriously 
because these prices are being driven up by speculation of what 
is happening in the Middle East and we don't have a seat with 
those OPEC cartels. We need to make sure that we are solving 
these problems domestically, but again, that we are paying 
credit where credit is due. It is important that we look at 
this closely.
    This is one of those areas where we have to come together 
as a Congress, as a nation, to make sure that we are going to 
provide the necessary relief to the American people during 
these very fragile economic times. So, Mr. Secretary, the first 
question that I would ask, and if you could include the 
response that you have there, and I see my time has quickly run 
out, Mr. Chairman, so most of my questions, Mr. Secretary, 
involve funding for our tribes, not only with concerns that I 
have with BIE schools, with funding that has been allocated but 
sometimes may take up to a decade to get out to our 
communities, and I am hoping that we can visit some of those 
issues, and I will submit those into the record.
    I certainly look to make sure that also as we take into 
consideration some of the cuts that are being recommended, and 
I know they are tough ones, that tribes are not hit more than 
anyone else. Tribal leaders have told me that we don't mind the 
reductions, as long as we are treated fairly. So, Mr. 
Secretary, I apologize for taking up the time there without 
giving you a chance to respond, I will submit these to the 
record, but I thought it was important that we shed some light, 
especially on what is happening with the price of oil and that 
there are true answers that are amongst us to be able to 
provide relief to the American people. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman, and we have 
established a precedent of when a question is asked and time 
runs out, the Secretary will respond, so, but I appreciate the 
gentleman's looking at that. Gentleman from Arizona, Mr. Gosar, 
is recognized for five minutes.
    Dr. Gosar. Good afternoon, Secretary Salazar, and thank 
you. I represent Arizona's 1st Congressional District, one of 
the largest congressional districts in the country. The 
district is comprised of 26.1 million acres of Federal and 
tribal lands, close to 70 percent of the total land. I have 
particular concerns about the millions of dollars proposed in 
the President's budget for the proposed purchase for more 
Federal lands, particularly in light of the estimated billions 
of dollars of maintenance and management backlogs that are 
existing on Federally owned lands. Proper forest maintenance 
and management is very important to me and my community, 
particularly in light of a tragedy that occurred last year in 
my hometown of Flagstaff, Arizona, and it is to this that I 
would like to highlight the need for proper management and 
maintenance of existing inventory.
    As you know, last June a wild fire destroyed more than 
15,000 acres of steep terrain in the Coconino National Forest 
known as the Schultz Pass. The wild fire scorched earth on this 
steep, volcanic terrain leaving little ground vegetation to 
absorb and hold back rain water. In addition, unusually high 
concentrations of forest fuels that had built over decades 
ignited and baked the unusually crumbled volcanic dacite into a 
crystal-like impervious substance which takes decades to be 
broken down just to grow grass. On July 6, 2010, the Forest 
Service Burn Unit Emergency Response Team issued a report to 
the residents living near the base of the peaks stating they 
would face a constant daily flooding threat from summon monsoon 
storms and publicly urged them to purchase flood insurance.
    Two weeks later, before insurance could be enacted, nearly 
two inches of rain fell in less than an hour causing flash 
flooding to the communities downstream from the Schultz Pass 
fire. Widespread flooding and debris disrupted and destroyed 
public infrastructure, damaged approximately 32 homes in the 
community and tragically led to the death of a 12 year old 
girl. There are some great long term ideas and projects in the 
works for maintenance and stewardship of our forests such as 
the Four Forests Restoration Initiative which works with local 
communities to manage them, and it is time that we got people 
back to work. However, my community has an urgent need for 
short term protection measures to be implemented before the 
summer monsoon seasons begin. Up to 1,200 homes are now 
considered to be in a flood zone and owners are living with 
uncertainty about their personal safety, financial risk and the 
inability to obtain flood insurance.
    Coconino County is making progress on developing an 
engineering flood plain control plan and getting as many 
parties to the table as possible to assist in their efforts. 
Members of the community have taken desperate measures to 
mitigate short term flood risks, digging trenches, canals, 
placing sandbags around their homes. A group of homeowners in a 
high risk area have built a coalition and have volunteered to 
build check dams on the Federal land but have been denied 
access to the land by the Forest Service. The Forest Service 
has not committed to mitigation projects on the national 
forests such as diversion channels, retention basins, even 
water barriers constructed from the remains of cut, burned 
trees locked behind existing stumps.
    The Forest Service, because of the wilderness designation 
that existed for this area prior, will not allow county 
equipment on site to repair a water pipeline damaged by the 
fire and flooding that the city desperately needs. We need your 
help now. Another disaster could occur if actions are not taken 
before July, the beginning of the monsoon season. It is 
critical the Forest Service and other relevant government 
agencies under your jurisdiction coordinate together and with 
local communities to expedite the flood protection measures to 
address the immediate threat posed by the post-fire and flood 
land conditions. I invite you to join me in Flagstaff at your 
earliest convenience and my community will show you the urgency 
of the situation. We have a pending emergency and we need your 
direct assistance. Will you help us?
    Secretary Salazar. Congressman Gosar, I would be happy to 
find out more about it and see what it is that we can do and 
have conversations with my colleague Tom Vilsack and members of 
the Forest Service to see how, if there is anything that we can 
do to be helpful. You describe a situation which obviously I am 
sure is not only of concern to you, but to a lot of other 
people.
    Dr. Gosar. I would look to your earliest response, please. 
Thank you. Yield back my time.
    The Chairman. I thank the gentleman for yielding back. The 
gentleman from California, Mr. Garamendi, is recognized for 
five minutes.
    Mr. Garamendi. Thank you, Mr. Chairman. Mr. Secretary and 
Deputy Secretary, thank you very much for your patience and for 
your answers. Repeatedly, my colleagues on the other side of 
this horseshoe have tried to blame you for the rapidly 
increasing price of oil. Seems to me beyond ludicrous to do so 
unless one were to think that somehow you are responsible for 
the uprisings in Libya and Egypt, the war in Iraq, the rise of 
China and India and their demand for oil. Having said that, I 
might recommend that next time you come, you come with a Power 
Point and present to us all of the information that you have 
not been allowed to present, specifically what you have done to 
increase the production of oil and gas in the United States. 
You have a remarkable story. You have gotten some of it out. I 
am going to give you the rest of this time, except for the last 
minute, to put those facts into this record. What have you 
done, and what has happened with regard to oil and gas 
production in the United States over the last couple of years?
    Secretary Salazar. Thank you very much, Congressman 
Garamendi. Let me just say I think that we all need to put this 
in the context of the overall comprehensive energy program 
which the President has advocated which he addressed in the 
State of the Union. First, we need to continue to move forward 
with conventional oil and gas production, as well as other 
energy resources. Second, we need to open the door to new 
energy resources, such as solar, and geothermal and wind, which 
we have spoken about. Third, we also need to address the issue 
of efficiency and major progress which we have made in the last 
two years to reduce the consumption of oil within our country. 
So all of those things have to be done. Focusing specifically, 
though, on just the oil and gas facts, to me, the top lines are 
very interesting.
    I mean, the fact that we have gone from importing 50 
percent of our oil, or 60 percent of our oil, just a few years 
ago and now we are importing only 50 percent of our oil, the 
fact that we have increased by more than a third the amount of 
oil that we are bringing from the Outer Continental Shelf, the 
fact that we have increased by five percent the amount of oil 
that we are producing from our public lands onshore, the fact 
that we are increasing the amount of natural gas that is being 
produced onshore. So the statistics speak for themselves in 
terms of the amount of oil and gas that is being produced 
domestically, as well as the acreage that is being made 
available, both offshore as well as onshore, to increase 
production.
    Mr. Garamendi. Thank you for that. If you could provide the 
additional detail for the record, it would be very helpful to 
us. Sometimes facts make inconvenient arguments when one wants 
to be on ideology rather than facts. With regard to wildlands, 
Deputy Secretary Hayes, for several times you have attempted to 
explain the wildlands policy. If you could lay out why the 
Secretary order has been promulgated and how you are 
implementing it, it would be helpful to all of us.
    Mr. Hayes. Thank you, Congressman. The order has been laid 
out to provide more clarity to all parties with interests in 
public lands regarding the availability of lands for different 
purposes. As you know, the Secretary has a legal obligation to 
consider multiple uses of lands. One of those uses authorized 
and required by law is to consider conservation and for some 
lands it makes sense that that is the use that is identified 
for those lands. Right now there is enormous confusion on many 
public lands about what lands are available or what are not, or 
what are appropriate for leasing or what are not. Utah is the 
perfect example. 2.4 million acres of land have been identified 
as having wilderness characteristics, but because there has 
been no guidance to BLM folks about whether those lands are 
appropriate for specific uses or not, no review, no discussion.
    Where leasing has gone ahead, many of the leases have been 
protested. In Utah, more than 50 percent of all leases are 
protested, in part because of the conservation groups and 
others are just now routinely filing protests since there is no 
clarity as to whether certain lands are appropriate for oil and 
gas leasing or not. The idea here is simply to improve the 
process, the public process, that will answer that question so 
that there is clarity on all sides as to the areas. It is not 
true that all lands with wilderness characteristics will be 
characterized as wildlands. As Bob Abbey, the BLM Director, 
just testified two days ago, in Utah, the first example that 
came forward of proposed potash facility on lands with 
wilderness characteristics was determined to go forward under 
that policy. So we are looking forward to a robust dialogue 
through the process of RMPs and active public involvement to 
determine whether some of those lands should be identified as 
wildlands.
    The Chairman. Time of the gentleman has expired. The 
gentleman from Texas, Mr. Flores.
    Mr. Flores. Thank you, Mr. Chairman. Thank you, Secretary 
Salazar, and the rest of your team for joining us today. I have 
an opening statement that I have prepared that will be 
submitted for the record separately. I would like to start with 
the preamble that our domestic energy resources are an 
important component of being able to grow a strong domestic 
economy, to be able to provide good private sector jobs and to 
promote our national defense. Department of the Interior's 
activities to affect drilling permit moratoria, drilling permit 
slow downs, are hurting all of those. I would also submit that 
our best strategic energy reserves are not those in the 
strategic petroleum reserves, they are those on the public 
lands that our taxpayers own, the public lands and offshore 
areas.
    We are one of the few countries in the world, if not the 
only country in the world, that puts our domestic resources off 
limits so that we are forced to import from other countries. 
Since 2008, the energy royalties and lease income from the 
Federal government, and before you try to rebut my facts, this 
comes from the Office of Natural Resources' revenue, says that 
our revenues from offshore in 2008 have gone from $16 billion 
to $8 billion. That certainly is not a good way to handle a 
taxpayer resource. In the alternative, we should be 
capitalizing on the trillions of dollars of taxpayer owned 
natural resources that we have to grow our economy, fuel 
domestic job growth and assure our national security. Not only 
did the Department of Energy enact a drilling moratorium in 
deep water, it is also engaged in dramatic slow down in issuing 
shallow water permitting, which has operated in an 
environmentally safe manner for over 30 years.
    Before we try to rebut those facts, the average number of 
new well permits in the years 2006 to 2008 was 330 a year. Last 
year it was 104, this year it has been 13. That comes from the 
BLM RE database. What is next? The actions of the Department of 
the Interior is an integral component of the current increase 
in gasoline prices, which began before the Middle East 
uncertainty, and each $1 increase in gasoline prices is $120 
billion tax on the consumers of this country. I would submit to 
you that that dwarfs the 10,000 megawatts of power that the 
Department of Energy is trying to produce, or the impact of the 
entire budget of the Department of the Interior.
    Historically, the U.S. has always been a country that 
companies wanted to do business in because we followed the rule 
of law, and we also had a transparent permitting process that 
was not arbitrarily followed. I have been involved with 
offshore drilling all around the world, and I have seen both 
models, where we follow the rule of law and where we have 
arbitrary and capricious regulatory models, and what I have 
seen, particularly in shallow water drilling in the last few 
months, has been the latter. That is not the way to make 
ourselves more energy secure. So my question is this. How do 
the Department of the Interior's actions serve to grow the 
American economy, to help promote private sector job growth, to 
assure our national security not only for current generations, 
but for future generations?
    Secretary Salazar. Congressman Flores, I appreciate the 
question. First, in terms of what we do relative to be part of 
the economy of this country, we do it both with respect to oil 
and gas, as well as with respect to other energy resources, as 
well as with respect to many of the outdoor recreational 
programs that we have spoken about this morning.
    Mr. Flores. And those can co-exist, I believe, can't they?
    Secretary Salazar. They can, and we believe that that is 
part of what we are attempting to do within the Department of 
the Interior. Couple of points. With respect to the revenue 
issue that you raised, 2008 was a year in which oil and gas 
prices were high so that was an abnormal amount of revenue that 
we received that year. On average we get $9, $10, $11 billion a 
year and we are on track to do that for this year from oil and 
gas production. In terms of permits, I think you would 
understand being from the energy world that after the Deepwater 
Horizon and the expectation that you would never see a Macondo 
well style blowout, that we had to take action to make sure 
that we are protecting people, like those 11 people that were 
killed on the rig, as well as----
    Mr. Flores. Yes, but do you look at shallow water drilling?
    Secretary Salazar. Yes.
    Mr. Flores. We haven't had issues in shallow water drilling 
for 30 years and we have had a dramatic slow down in the 
issuance of shallow water drilling permits.
    Secretary Salazar. Congressman, we have moved forward with 
shallow water permitting. There were additional requirements on 
safety that we impose on the shallow water drillers. There are 
37 permits that have already been issued, and we expect to have 
a robust oil and gas production coming out of the Gulf. I 
think, and I would ask you, Congressman Flores, to think about 
this, that our policy program and objective here is the same. 
The President of the United States and I support a strong oil 
and gas production in the Gulf of Mexico. I would expect that 
you, as well as other members of the industry, would want us to 
do it in a safe way that protects people and protects the 
environment. That is why the budget that is in front of you is 
a part of that effort, to make sure that we are able to do 
that. I would hope that we, in America, can create the gold 
standard for safe oil and gas production in the oceans of this 
world.
    The Chairman. Time of the gentleman has expired. The 
gentleman from Arizona, Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman and, Mr. Secretary, 
thank you for, let me extend my appreciation for the job that 
you are doing, the very difficult job of balancing extraction 
from our public lands and waters and balancing that with the 
preservation, conservation and recreational needs of those 
lands and waters as well. It is a difficult job and let me 
extend my appreciation for the fine job you are doing with 
that. Just for the record, there was seven shallow water 
permits issued in December which matches the monthly total from 
the year before the spill occurred, so in reference to the 
point that you made, Mr. Secretary, facts do come into play in 
this whole discussion and I hope as we go forward with this 
discussion, as the Chairman indicated, that facts and science 
play a role in the deliberations.
    You know, as the Middle East, and Libya in particular, 
struggle to form some form of democratic governance in their 
own countries, those are terrific challenges, I hope that 
struggle doesn't become an opportunity to shield, for the oil 
and gas industry to go back to some unregulated winner take all 
policy with regard to extraction from our lands and waters. 
There is prudence involved here and there is the safety and the 
health of the American people as well. Land and Water 
Conservation Fund. My colleagues on the other side of the aisle 
took the President's $900 million recommendation, drove it 
down, cut it down to $60. Implications in terms of what that--
if that figure were to hold, what would be the implications for 
the work of the Interior Department and the work of communities 
in terms of that fund? We have already established the fact 
that we are not cutting, we are not saving and it is not 
costing the taxpayer any money in the Land and Conservation 
Fund. That was established earlier in this hearing. So I just 
want to know, what would be the implications of that? Then I 
have a couple of other quick questions.
    Secretary Salazar. Well, first, Congressman Grijalva, thank 
you for your leadership, especially working on so many issues 
that are important to Interior and to the Nation in your 
district in Arizona. With respect to oil and gas leases, you 
are correct. The numbers are out there and we would be happy to 
get the specifics, but we have moved forward as quickly as we 
can when we were at a point in time where we could assure that 
we were moving forward in a safe way in the issuance of permits 
and so that is why you have seen the additional shallow water 
permits issued, and we hope to be able to move forward with 
additional deepwater permits as well in the relatively short 
future. With respect to the Land and Water Conservation Fund, 
it is a modest investment in the future of America because the 
dollars that we are putting in to buying in holdings and 
connecting up wildlife corridors and the rest of the things to 
get American people into the outdoors are important to the 
hunters and anglers of this country, they are important to the 
bikers of this country and they are a huge part of the economic 
engine of the United States of America. As I said earlier, just 
the outdoor industry alone independently will tell you that 
there are 6.5 million jobs created a year in this country. 
Those are not jobs that can be exported. So the kinds of 
investments that we make with LWCF are, and have, seen that 
economic future for the U.S.
    Mr. Grijalva. Thank you. The Clear Act passed the House, 
didn't go anywhere in the Senate, and part of that was some of 
the reforms that you had recommended after the spill and things 
that needed to be done internally and externally. Now that we 
are talking about this budget, are you still going to have the 
capacity internally, you did some administrative changes, to 
carry out some of those administrative changes given the 
resources that might or might not be available to the 
Department so that we can continue to prevent what happened in 
the Gulf from not happening again?
    Secretary Salazar. The request that we have in the 
President's budget for offshore oil and gas activities for the 
Bureau of Ocean Energy Management are essential for us to move 
forward with the robust oil and gas permitting program in the 
nation's oceans. Without those resources, frankly, we are not 
going to be able to move forward with the permitting process in 
the way that we want to because you need to have people to be 
able to go out and do the jobs, issue the permits, do the 
inspections, do the monitoring.
    Mr. Grijalva. Thank you.
    Secretary Salazar. All that needs to happen, and so that is 
one of the initiatives that is at risk if that part of this 
budget is not funded.
    Mr. Grijalva. Thank you, Mr. Chairman. The other questions 
that I have, everything from bats to wild horses, the wild 
horses being something that I know the Secretary likes to hear 
about from me, I will submit those in writing, sir.
    The Chairman. And please be sure to share the response with 
all the other Members.
    Mr. Grijalva. Depends what it is. No. Of course I will.
    The Chairman. The gentleman from Louisiana, Mr. Landry, is 
recognized for five minutes.
    Mr. Landry. Mr. Secretary, I will dispute some of your 
facts, which I am sure you will go back and dispute, but the 
Department of Energy shows that we have about a 300,000-barrel 
loss in Gulf of Mexico production, but the one fact that is 
undisputable is that Americans have been paying more at the 
pumps since January of 2009 until today. The price at the pump 
has continued to increase. I am going to give you an 
opportunity to explain this robust energy policy that you all 
are trying to lay out for me. You implemented the drilling 
safety rule for offshore to enhance safety in upstream oil and 
gas business, is that correct?
    Secretary Salazar. That is correct.
    Mr. Landry. OK. Does this rule apply to drilling activity 
on onshore Federal lands?
    Secretary Salazar. There are different realities on shore.
    Mr. Landry. And would you say that those realities are 
based on past history and safety aspects?
    Secretary Salazar. The realities are based on experiences, 
as well as just the differences of regulating in the offshore 
and the onshore, and let me be specific. When you start dealing 
with the Gulf of Mexico, which I know you are very concerned 
about, and you start drilling in places that are 5,000, 6,000--
--
    Mr. Landry. OK. Whoa, whoa, whoa! But I don't want to go 
there yet because what I want to show you is that based upon 
the history on the shelf, with over 40,000 wells drilled on our 
shelf we have not had an accident on that shelf in any 
magnitude in the deep water, and yet our shallow water permits 
continue, continue to lag. In fact, a three year permit average 
from 2007 to 2009 had an average of 28 permits per month that 
were issued. In the first quarter of 2010 that average was 21, 
in the second quarter of 2010 it was 12, the third, 13, the 
fourth, 18. The average for this year is six. Now, what I want 
you to explain to me is that if you are saying that the onshore 
drilling is safe and you are using a history, which I think is 
correct, but yet the shelf has that same history and safety 
record, but yet you are treating it different, to me, that is 
not robust.
    In fact, not only are your drilling permits and your 
construction permits lagging, but I have oil and gas companies 
who are trying to keep people to work in my district doing P&A 
work, plugging and abandoning, at a time when I think it was 
your agency who had made some comments back after the Deepwater 
Horizon incident that the industry should be cleaning up some 
of its idle iron. Well, I want you to know that the permit 
process in New Orleans is at a dead standstill when it comes to 
P&A work. Now, this is work that the Administration claims 
needs to be done. When I look at the budget I wonder if you are 
actually utilizing your resources, because if I am not 
mistaken, the BLM offices, if you give me a second, are 
scattered out from Houston to New Orleans, I think there is one 
in Lake Charles. Well, there is one in New Orleans, Homer, 
Lafayette, Lake Charles and Lake Jackson. It seems to me that 
we could do some consolidation and get some streamlining at 
least for P&A permits so that we can keep people to work while 
you all continue this robust energy policy that we are moving 
forward. Wouldn't you agree?
    Secretary Salazar. If I may, on your comments, just 
quickly, two points. The first is on the issue of gas prices. 
The fact is that the price of oil is set worldwide and we are 
able to influence that in terms of domestic production. The 
experts, the economists, tell us that we don't have an 
influence on that.
    Mr. Landry. Well, but if that is the case, then how can the 
gentlemen on the other side of this aisle claim that utilizing 
the strategic reserve would give us some relief at the pump? 
Because all that is increasing the supply.
    Secretary Salazar. Well, the strategic petroleum reserve is 
a tool that was set up to deal with disruptions in the market 
after incidents like OPEC and perhaps the incident now.
    Mr. Landry. And for incidents of national security. But we 
have a great strategic reserve in the Gulf of Mexico----
    Secretary Salazar. I agree.
    Mr. Landry.--that is a lot cheaper than utilizing that one. 
I don't understand. At first you said it is set, the price is 
set on the world market, and I agree with that, but what 
affects that price is supply and demand, don't you agree?
    Secretary Salazar. That is true, including the demand from 
China, and India and the rest of the world.
    Mr. Landry. But there is also a reason why brand crude oil 
prices are higher than U.S. crude prices, and sometimes it has 
to do with delivery options. So my point is that when we drill 
domestically, the ability to get that resource into our 
refineries comes at a much lesser cost because of the 
transportation costs out there. So all of those things come 
into a factor when you should be considering your energy 
policy. That is why I think that its failed, that you are 
treating the Gulf of Mexico and you are painting it with one 
brush.
    Secretary Salazar. Let me just say the fact is that we have 
increased production in the country. Those facts are 
indisputable over the last two years. Second, your legitimate 
question which you asked which isn't just a political diatribe 
is the question of how we are doing the new Bureau of Ocean 
Energy Management and the consolidation. There are legitimate 
questions that you raise there and we are looking at those very 
seriously. What we want to do is to establish a robust agency 
that can, in fact, do the job that it has to do and it may 
include some of the consolidations and some of the moves that 
you raised in your question.
    The Chairman. Time of the gentleman has expired. The 
gentlelady from California, Mrs. Napolitano, is recognized.
    Mrs. Napolitano. Thank you, Mr. Chair. Good to see you 
again, Mr. Secretary, Mr. Hayes. There are some questions that 
I am going to have to submit for the record. If you wouldn't 
mind returning them in writing to this Committee. I certainly 
want to kind of dovetail some of the comments on the 
hydrofracking for the fact that there are some issues in my 
backyard that are beginning to affect the residents' concerns 
over the contaminated water that hydrofracking leaves behind. I 
am not sure whether we can address or whether we can maybe help 
those folks be able to understand it. California crude is 
heavier than most of the other crude. Second, I want to 
congratulate Commissioner Connor for working heavily with us on 
Title 16, especially with the error money, to make real water 
and put people to work. That is just absolutely a must in the 
West.
    Then, moving into the Native American focus, the tribal 
recognition, moving forth on that and putting a lot more focus 
on some of their issues. The Bureau of Indian Affairs received 
a budget increase for energy initiatives and I know that IBEW, 
electrical workers, and NECA, the electrical contractors, have 
submitted a white paper, including some of the reservations in 
my area, that are looking at placing on site manufacturing of 
solar panels and training of Native Americans for jobs into the 
electrical contracting, or electrical manufacturing, electrical 
contracting, so that develops not only jobs, it brings back 
manufacturing to the U.S., brings solar panel manufacturing to 
the U.S. provides electrical journeymen training to Native 
Americans as they get job development, and economic 
development. There are 20 tribes actually lined up to work with 
these two organizations that are moving forth on this, and I 
would love to see where the Department is on this and if there 
is going to be any focus to help Native Americans be able to 
have that ability to do this.
    Second, the budget request includes a new account for 
National Land Imaging Program overseeing the operation of the 
Landsat satellites, providing global land cover data used by 
academia, agriculture, researchers, the world, in fact. Like to 
congratulate the Department on the work done so far and the 
Water and Science Agency and the Landsat. One of the concerns I 
have is that it is essential to the imaging environment, 
impacts the ground and aquifer imaging. The DOI budget request, 
will it be sufficient to ensure that the land-based operations 
are ready to handle the thermal infrared sensoring, the TIRS, 
T-I-R-S, when Landsat launches in December of next year? We 
have been told by many of the water agencies, they utilize this 
information, that it is critical for them, it is critical for 
farmers. Then third, the water challenges, the water shortages 
and water use conflicts is one of your seven initiatives for 
2012. How will the proposed reductions in spending for these 
basic data gathering, of course the USGS stream gauging and the 
ground water monitoring specifically that affect the work that 
we do on water, impact DOI's ability to fulfill its statutory 
mandates, affect decision support and impact states and other 
nonFederal partners? I could go on, but those are the ones that 
I really have and you can take any one of them and the rest I 
will submit for the record because I will be yielding. Well, in 
fact, all of them for the record and I yield one minute to Mr. 
Garamendi.
    Mr. Garamendi. Thank you. A lot of discussion going on here 
about energy but I would point out that the oil market is an 
international market and whatever happens here in the United 
States with drilling and the like is not going to change that 
price of oil very much. We should also note that the oil 
industry, the big five, in the last decade had just short of $1 
trillion in profits. As this price rises, the world is going to 
see that $18 or $16 billion go back up from whatever it is 
today, as was discussed. I want to commend the Department for 
every effort you are making to become less dependent on grid 
energy and more dependent on renewable energy. You are doing a 
lot. What you have done in the deserts with your renewables, 
very good. More needs to be done. We know we have a series of 
problems and I know that you are trying to attack those 
problems so that we can move away from our dependency on 
foreign oil. Your record is very good. You should stay with it.
    The Chairman. Time of the gentleman has expired. The 
gentleman from Ohio, Mr. Johnson, is recognized for five 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman. Secretary Salazar, 
Ohio is very dependent upon the coal industry. We get about 87 
percent of our energy from coal. The industry supports more 
than 30,000 direct and indirect jobs and the majority of these 
jobs are in my district in eastern and southeastern Ohio. As 
you know, the Office of Surface Mining, Reclamation and 
Enforcement is preparing a complete rewrite of current 
regulations regarding surface mining in the stream buffer zone. 
According to your Department's own environmental impact 
statement, this proposed regulation could cost more than 20,000 
coal mining and related jobs, cut coal mining production by 50 
percent and increase the cost of electricity for families and 
small businesses. What is your justification for such a 
significant rewrite of existing regulations that would result 
in such significant job losses and jeopardize our domestic 
energy security?
    Secretary Salazar. I will have Deputy Secretary Hayes 
respond.
    Mr. Hayes. Congressman, we are looking fresh at the rule 
because a Court intervened and expressed concern about the rule 
that came out at the end of the prior Administration. I should 
say that the rulemaking has only started. You referenced the 
environmental impact. There is no draft environmental impact 
statement that is out yet. What you are referring to was a 
draft that was prepared by a contractor and that was not 
approved by the Department. We are very concerned and want to 
make sure that this rulemaking proceeds and the environmental 
impact statement proceeds with full public input. We have made 
no judgments about what the final rule will look like and we 
look forward to working with you and others to make sure that 
it is a good rule and it makes sense in coal country.
    Mr. Johnson. Well, I am very concerned because the 2000 
rule that you reference followed a five-year rulemaking process 
supported by 5,000 plus pages of environmental analysis and 
40,000 public comments. I am just very concerned why OSM is in 
such a rush to rewrite this rule that has already codified 30 
years of industry practice.
    Mr. Hayes. We are not in a rush. We are acting under Court 
supervision. The Court has established some deadlines for us to 
proceed, but we will make sure that we proceed in a deliberate 
way. Again, there is no draft environmental impact statement 
out yet. When it comes out, we will look forward to input, 
along with the rulemaking itself.
    Mr. Johnson. Shifting gears just a bit, I am a little bit 
confused, Mr. Secretary. You talked about the increased funding 
required in your budget submittal in order to create this 
robust permitting process, yet you have testified and my 
colleagues have pointed out the decreases in permits in 
previous years. Why do you need so much money to get back to an 
acceptable level of permitting? We were there before. Why is it 
different now?
    Secretary Salazar. Congressman Johnson, I think there is a 
reality that the American Public and the American Congress and 
I think all of us should take into account and that is there is 
a pre-Macondo timeframe and a post-Macondo timeframe. I think 
if you look at the 30 years before Macondo there was not the 
right kind of caution that was taken, and the right kind of 
inspection and oversight, and technology that allowed us to get 
into deeper and deeper waters essentially got ahead of our 
ability to deal with safety issues, environmental issues and 
other kinds of issues, and so what we want to do is to achieve 
a goal, which I think we can agree on, and that is that we want 
to have oil and gas production in the nation's oceans, and have 
specified the area as the Gulf of Mexico as the area which is 
the most promising which already contributes about 30 percent 
of the domestic production of oil to the United States, but we 
want to do it in a way that is going to be safe. In order to do 
that, you need an agency that can do the job. The former MMS 
simply did not have the capacity to do the job.
    Mr. Johnson. I don't mean to cut you off, Mr. Secretary. I 
can see that my time is about to expire. You testified, and I 
have heard other colleagues here mention it, oil is an 
international market, and according to your testimony, the 
United States, we have very little influence over the price of 
oil. I will submit to you that I think that is exactly what 
terrifies the American public, that we seem to have our hands 
behind our back, and this lack of permitting, this lack of 
going after resources that we have right here in America and 
falling prey to that philosophy is indicative of a failed 
energy policy. So, with that, I yield back my time.
    The Chairman. Time of the gentleman has expired. The 
gentleman from Florida, Mr. Rivera.
    Mr. Rivera. Thank you, Mr. Chairman. Mr. Secretary, thank 
you so much for being here today. As your know, the Everglades 
and Big Cypress in my district are national treasures, I am 
sure you would agree, and important economic resources for my 
state, for the State of Florida. Everglades restoration is a 
huge priority for me and for my entire Florida Delegation and I 
personally feel a tremendous responsibility to this issue 
because so much of the national park and the Big Cypress 
preserve fall within my congressional district. As we go 
forward, I also think it is important that all the stakeholders 
are involved in determining what prudent steps can be taken now 
and in the future, particularly with the current economic 
climate, to achieve the goal that everyone I am sure wants to 
achieve of restoring water flow in these areas. You have placed 
a great deal of emphasis on the Everglades as a special 
landscape.
    Last year you broke ground on a one mile bridge along an 
artery through the Everglades, the Tamiami Trail, as a first 
step to restoring water flow to Everglades National Park, and 
you also announced the selection of a plan for additional 
bridging to restore that water flow. I also, as you well know, 
represent the Miccosukee Tribe of Indians. I know you have 
recently met with them, and I have met with them as well. The 
Miccosukee Tribe in my meetings have raised some concerns with 
regards to the construction of the Tamiami Trail Bridge and the 
additional proposed bridging. They have told me they strongly 
support Everglades restoration, but they also have some 
concerns regarding the environmental soundness of the project 
and they are concerned that it might cause harm to culturally 
sensitive, and archeological, and sacred and religious sites, 
so in order to perhaps bridge some of those concerns or allay 
some of those concerns I am wondering if you could tell me what 
considerations were given to alternate plans, perhaps presented 
even by the Miccosukee Tribe of Indians, for the bridge and the 
proposed additional bridging. What alternatives were 
considered?
    Secretary Salazar. Congressman Rivera, let me first say to 
you that I appreciate the leadership that you bring to the 
Everglades restoration project. It is a project which has 
received strong bipartisan support in the past, and in my view, 
is one of the most important ecosystem restoration projects not 
only in the United States, but literally in the entire planet 
as a world heritage site. Some of the parts of the budget that 
we are dealing with now, including Land and Water Conservation 
Fund, will help us get to reality of restoring the river of 
grass in the Everglades. With respect to alternatives on the 
Tamiami Trail, those were all looked at in a very extensive way 
through all the environmental impact analyses that went into 
the construction on the Tamiami Trail and the proposed 
additions. There have been robust conversations with the tribes 
to make sure that their input is being heard and that robust 
consultation with the tribes will continue.
    Mr. Rivera. Well, I appreciate that. I know your Department 
has had meetings with them, I have as well, and I am wondering, 
perhaps one of the most robust ways we can encourage that 
communication perhaps would be communication or a meeting 
directly between the Chairman of the Tribe, Colley Billie, and 
perhaps yourself. I am wondering if you would be open to a 
direct meeting or direct communication perhaps here in 
Washington that I could maybe help facilitate. Would you be 
open to meeting with the tribe?
    Secretary Salazar. Yes.
    Mr. Rivera. Also, finally, can you tell me going forward as 
we plan for Everglades restoration in the years ahead and 
ensuring that the national park and other areas you manage are 
preserved, what do you envision, what else can be done to make 
sure that not only water flow is restored, but that this 
treasure is preserved for generations to come?
    Secretary Salazar. Congressman Rivera, I think that what 
had happened, frankly, until two years is that for about an 80-
year timeframe there was literally very, no progress being made 
in terms of Everglades restoration. We have done a lot in the 
last two years and we have done it by getting the House of the 
Federal family in order and have invested significant resources 
in getting the Everglades to where they should be today. 
However, that has depended on the partnership that we have had 
with farmers, and land owners, and ranchers, and the State of 
Florida, and local governments, and the South Florida Water 
Management District, which has been a great partner as we have 
moved forward.
    Mr. Rivera. And the tribe.
    Secretary Salazar. And the tribe. The most important thing 
that we can do to bring the project across the finish line in 
success is to continue that partnership that has been underway 
for the last two years.
    Mr. Rivera. Thank you. I appreciate those remarks. I yield 
back, Mr. Chairman.
    The Chairman. I appreciate that. Chair would note, Mr. 
Secretary, that we have only two more questioners and that will 
coincide perfectly with your timeframe of 1:00, so the timing 
is everything on this. At this time, I would recognize the 
gentleman from California, Mr. Denham, for five minutes.
    Mr. Denham. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary. Let me first start by thanking you. I know you have 
spent some time in the Central Valley looking at the 
devastation with the water policy we have had. Know there have 
been a number of questions on that and I have a number of 
questions as well, but I would like to get your full attention 
and detailed answers on it so I will submit those to you. So 
let me just address a couple of funding questions that I have 
concerns with. I also represent not only the Central Valley, 
but Yosemite and some of the mountain areas, and specifically 
in Tuolumne County, one of the concerns that we have is the 
cuts to the Secure Rural Schools Program. I guess I would be OK 
with the cuts if we were going to start doing more logging 
again and, you know, they would have that additional revenue, 
but absent new policy, we certainly would need some type of 
plan on keeping those schools obviously open and funded. First, 
I would ask you to address that area of cut and the phase out 
of that. I know the President's new proposal has a phase out in 
it.
    Secretary Salazar. Congressman, my understanding is that 
within the Department of Agriculture there is an amount, I 
believe it was $328 million from testimony that I gave 
yesterday in the Department of Agriculture, and we will work 
closely with them in terms of the Secure Rural Schools funding. 
It is something that I have been aware of and have worked with 
the California and Oregon Delegations on in the past, so I am 
aware of the issue. I don't know the specifics with respect to 
the area that you speak about, but we will look into it. On 
your other issues, on the Central Valley and the water issues, 
I would say the Deputy Director of the Department of the 
Interior has probably spent more time working on that issue 
than any single other issue. It is exceedingly complex, but 
there is great possibility and great hope that if we can keep 
the water users and the other interests together, that we can 
make some major breakthroughs on the California water issues in 
the Central Valley this year. So we are very hopeful. We are 
working on it together. Just a quick comment on Yosemite. 
Yosemite has a special place in the heart of the conservation 
community in this country because it was set aside by President 
Lincoln right in the midst of the Civil War and it is what 
makes our country, as Ken Burns of Dayton Duncan would say in 
their movie or in their film, America's best idea. So what 
Abraham Lincoln started in 1865 with Yosemite is a tradition 
that I hope we are able to continue working together in a 
bipartisan way for a lot of reasons, but also because it 
contributes so significantly to the economy of our country, 
whether it is the Everglades, or whether it is Yosemite, or 
whether it is Olympic, or Rainier, or other of our great 
national parks.
    Mr. Denham. Thank you. Thank you. Just a couple quick 
questions on purchasing property. One of the things that I am 
seeing now, we just finished duck season. My duck license was 
very expensive and now I see $25 going up. First of all, do we 
really need to buy more land right now? Are the hunters not 
doing a good job of protecting the conservation of that area? 
Specifically on the wildlands piece, I know BLM is talking 
about greater resources and benefits and being able to use 
properties and it seems like it is somewhat in conflict with 
wildlands. I mean, there are a number of policies that I am 
seeing move forward where we are actually going out and buying 
more property, and at the same time we have the President who 
now is putting together a new commission to sell property. So 
in a time of fiscal crisis it would seem that, you know, we 
would agree with the President's direction to sell properties. 
The question is how do we do that? Then second, why would we be 
going out and buying more property at a time that we are going 
through today?
    Secretary Salazar. First, let me say that on the 
acquisition of properties, I know for a fact that hunting 
organizations from the National Riflemen's Association to Ducks 
Unlimited and Trout Unlimited are strongly supportive of 
protecting those areas that are a special place for hunters. 
Hunting adds a huge amount to the economy of this country. It 
is a sport which I strongly support. When you have lands that 
over the last 10 years have been disappearing which have been 
prime hunting and wildlife habitat at a rate of the size of 
Connecticut every year, it should call us to action to invest 
in the protection of these lands that are special lands for 
hunting and----
    Mr. Denham. Disappearing? Are they vanishing? Disappearing?
    Secretary Salazar. They have moved over to development in 
very significant ways. I mean, our population as it has grown 
and is projected to continue to grow will continue to have 
these lands diminished, and so having a proactive conservation 
program in a partnership way that respects private property 
rights is something that we very much support, and it is the 
heart of the America's Great Outdoors concept. It is at the 
heart of this budget. I said earlier one of the great examples 
is what the ranching community. These are working ranchers, 
fourth, fifth generation ranchers that took the lead creating 
the Flint Hills National Conservation Area to protect 1.1 
million acres of the last remaining tallgrass prairie in North 
America. These are ranchers who said they want their way of 
life preserved in ranching. It is good for the economy of 
Kansas, and it is good for the environment. So I think we can 
move forward with that agenda.
    The Chairman. Time of the gentleman has expired. The 
gentleman from Florida, Mr. Southerland.
    Mr. Southerland. Thank you, Mr. Chairman. Mr. Secretary, 
thank you very much for being here today. I think you have been 
Secretary for a little over two years, that correct?
    Secretary Salazar. Yes, sir, that is correct.
    Mr. Southerland. How many employees are under your 
direction?
    Secretary Salazar. Around 70,000.
    Mr. Southerland. And your budget for 2010 was somewhere I 
think a little over $12 billion, correct?
    Secretary Salazar. That is correct.
    Mr. Southerland. I congratulate you. That is an enormous 
responsibility. I mean, I am a small business owner. I can't 
imagine having that much responsibility. I wanted to ask you, 
you know I live in Florida. We were affected. My district had 
eight counties on the Gulf. I wanted to ask you some questions 
regarding the Deepwater Horizon. You know, the President formed 
the commission on BP in the Deepwater Horizon oil spill. Did 
you participate in that report? Do you have any work or 
consultation responsibilities in that report?
    Secretary Salazar. I appeared before the commission, 
provided excessive testimony, along with Deputy Secretary David 
Hayes and a number of other people from the Department of the 
Interior.
    Mr. Southerland. OK. So your input was included. Obviously 
it had an effect on the report that Senator Graham and Mr. 
Riley came and presented before this body about a month ago.
    Secretary Salazar. They were an independent commission but 
we did provide them whatever information they requested from 
us.
    Mr. Southerland. They had nine findings that they presented 
before us, 400 pages, and none addressed any government's 
responsibility in the exasperation of that disaster in the wake 
of that. I am just curious. Do you feel from your vantage point 
over 70,000 people, $12 billion, does the government bear any 
responsibility having issued 720 violations in the wake of that 
disaster? Any?
    Secretary Salazar. Congressman Southerland, I think that 
the Deepwater Horizon was a tragedy that was brought about by a 
huge number of circumstances, including government inattention 
and government inaction.
    Mr. Southerland. I'm curious--if I may. I am the last one 
here so time is a precious commodity. As far as a percentage, 
does the government bear five percent? Ten percent? You are a 
smart man. They don't give this position to somebody that can't 
speculate a little bit. What do you think?
    Secretary Salazar. I would say to you that the honest 
answer that is not at all a political answer, I think it is 
just the fact, is that the former agency, MMS, simply was not 
given the tools by the Congress, nor overseen by the Executive 
Branch of government to do the job that was so critical. At 
this table and in this Committee several years ago, we 
testified about the need to have organic legislation for MMS 
and what you have in front of you with this budget is an effort 
to try to stand up a robust agency that can accomplish these 
very significant missions that we have assigned to this 
particular bureau.
    Mr. Southerland. OK, but clearly, if you had the ability to 
issue 720 violations and we seem to be not be able to rescind 
the Jones Act when we had offers from around the country to 
bring in skimming ships to help us at least contain the 
disaster, clearly you have to be a smart man. Seventy thousand 
people, that is mind-boggling to me. You have to be able to 
agree that the Administration, government, could have done 
more. I know you keep throwing it on Congress, but I am talking 
about you. You don't get 70,000, $12 billion without having 
some ability to make a difference, correct?
    Secretary Salazar. Well, first----
    Mr. Southerland. That is just a yes or no. I am running out 
of time here.
    Secretary Salazar. Let me say we did I think a Herculean 
job in responding to the tragedy. Was it perfect? No. Was it 
anticipated and all the problems foreseen? No. Have we learned 
from it? I would hope we have learned from it. Part of the 
lessons learned are incorporated into the budget request that 
we have----
    Mr. Southerland. Can I ask you, now I am on the yellow 
light, after 720 findings, and again, that is amazing to me, 
have there been any disciplinary actions that have led to 
firings or dismissals from any of the individuals that were a 
part of citing those violations and issuing those citations? 
That is just yes or no. Anyone fired?
    Secretary Salazar. Over the last two years there have been 
a number of disciplinary actions.
    Mr. Southerland. Anyone fired, though?
    Secretary Salazar. There have been people fired, people who 
have been prosecuted, people have, appropriate action has been 
taken as we have cleaned up MMS over the last two years.
    Mr. Southerland. OK. I know when Mr. Costa was questioning 
you, you stated that you have the ability to focus like a laser 
beam. I mean, that was your words about an hour and a half ago. 
I would just encourage you, being in the position you are with 
70,000 people, $12 billion, obviously a great skill set to be 
given that and you have the ability to focus like a laser beam, 
that at some point in time someone from your Administration, or 
you even yourself, would be able to say, you know what, we 
screwed up. I think the American people would appreciate--and I 
am not ignoring the fact that BP----
    The Chairman. Time of the gentleman has expired. If there 
is a question there, I would ask the Secretary to respond to 
that question.
    Secretary Salazar. I would just say there is a collective 
responsibility that has to be shared over what happened in the 
Gulf of Mexico.
    The Chairman. Thank you very much. I think that all of us 
on this Committee have always felt that that issue as brought 
up by the gentleman from Florida was legitimate to be 
discussed. Secretary Salazar, thank you very much for being 
here. I want to thank all the Members for adhering as closely 
as we could possibly do to the five-minute rule. If there are 
further questions from any Members of the Committee, Mr. 
Secretary, I would ask you to respond to those questions in as 
timely a manner as you possibly can. If there is no further 
business before the Committee, the panel is dismissed and the 
Committee stands adjourned.
    [Whereupon, at 1:35 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

    [The prepared statement of Mr. Benishek follows:]

       Statement of The Honorable Dan Benishek, a Representative 
                 in Congress from the State of Michigan

    Thank you Mr. Chairman and I thank you Mr. Secretary for coming 
today.
    I am new to the Committee and new to Congress. I'm looking forward 
to working with you.
    My Northern Michigan district includes three Great Lakes, Isle 
Royle National Park, large forests and my favorite place in the world--
my small camp in the Ottawa National Forest.
    I am an outdoorsman and someone who truly appreciates the need to 
preserve our land for the future. However, I want to convey a message 
that I hope we can work together on in the next two years.
    People in my district want to be able to enjoy the land. They want 
access for recreation. They want to hunt, fish and ride vehicles. I am 
asking to work together to curb the abusive lawsuits that are only 
meant to delay the ruling process and prevent access. Let this 
committee give you the tools you need to complete your job.
    At the same time, this Committee is looking for you to take the 
lead in tackling high gas prices. The unrest in the Middle East only 
underscores the need to increase our domestic supply. Mr. Secretary you 
hold the keys to the kingdom. It's time to expedite permits, open up 
land and start drilling.
                                 ______
                                 
    [The prepared statement of Mr. Flores follows:]

       Statement of The Honorable Bill Flores, a Representative 
                  in Congress from the State of Texas

    Mr. Chairman, thank you for holding today's important hearing and 
thank you Secretary Salazar for appearing before us today.
    Last week, I had the opportunity to hear from my constituents 
during four town halls and there was a persistent theme--what can we do 
to promote private sector job growth in our nation and reduce the 
uncertainty in our economy. Gasoline prices are on the rise, both due 
to declining Gulf of Mexico production and unrest in the Middle East. 
Concerns over higher energy costs slowing our economic recovery are 
also being reflected in the stock market. Despite these warnings, the 
Obama Administration's actions continue to ignore these significant 
issues. Instead of pursuing energy independence, the Administration 
further restricts access to our domestic supplies by imposing billions 
in tax and fee increases that will raise the cost of energy for all 
consumers, damage our fragile economic recovery, cause additional job 
losses, and hurt our national security. To add to this Administration's 
fiscal nonsense, the declining Gulf of Mexico production and 
uncertainty in the permitting process is costing the Treasury millions 
of dollars per day in royalty revenues. In addition, the lock-ups of 
huge areas of prime acreage for domestic energy exploration makes us 
the only country in the world which seems to be intent on putting our 
own strategic domestic resources off limits.
    There are measures that the federal government can take to secure 
oil and gas supplies and offset rising prices. Regulators should end 
the slowdown in the permitting process in both the deepwater Gulf of 
Mexico and the shallow water Gulf of Mexico, and move ahead with 
issuing additional drilling permits. In addition, the lock-ups of huge 
areas of prime Secretarial Order 3310, issued last December, 
establishing the Wild Lands policy that locks up vital domestic energy 
sources at a time of much need should be reversed. We also need an 
``all of the above'' view towards energy that uses a combination of all 
energy sources including traditional fuels such as coal, oil, and gas, 
as well as emission free nuclear, wind, and solar power. If the 
Administration would take these common sense steps, our economy would 
continue to recovery, hundreds of thousands of good paying American 
jobs would be created, and we would assure our children of a future of 
economic opportunity, energy security, and national security.
    I look forward to hearing from Secretary Salazar today and to 
discussing how we can ensure a reliable supply of American energy that 
will contribute to our economic recovery.
                                 ______
                                 
    [The prepared statement of Mr. Tipton follows:]

     Statement of The Honorable Scott R. Tipton, a Representative 
                 in Congress from the State of Colorado

    Thank you Chairman Hastings for convening today's hearing. I would 
like to join my colleagues in welcoming Secretary Salazar as we examine 
the budget and priorities of the Administration and the Interior 
Department.
    There are approximately 8,686,842 acres of land controlled by the 
Department of the Interior in the 3rd Congressional District of 
Colorado. It's no surprise that the budget and priorities of this 
Department is of great concern to me and my constituents, and that the 
policies of the Interior Department affect our everyday lives and our 
livelihoods. The Interior Department needs to look closely at ways to 
trim excessive spending and to implement policies that will help rather 
than hinder the job market. As oil approaches $100 a barrel and 
gasoline prices are expected to go above $4.00 a gallon, it is 
absolutely imperative that the Interior Department prioritize domestic 
oil and natural gas exploration. We also need to focus on facilitating 
innovative technologies in oil shale development and avoid excessive 
regulations which discourage the exploration of this potentially 
massive source of domestic energy. Doing so is a matter of national 
security as well as critical source of jobs in my district and across 
the country.
    We also need to ensure that multiple use management is continued on 
BLM lands and that the designation and protection of valued wilderness 
areas is determined through local consensus and a vote of Congress, not 
through Administrative order. There are 250,949 acres of wilderness in 
the 3rd Congressional District and 520,000 Wilderness Study Areas. Many 
of these areas are properly designated and the level of protection they 
receive is appropriate. However, with so much of my district already 
restricted by the wilderness designation, it is irresponsible to allow 
the federal government to further restrict lands by administrative fiat 
when doing so acts in derogation of the Federal Lands Management Policy 
Act which requires BLM lands to managed for multiple use and sustained 
yield. This was a common sense policy when it was developed and remains 
so today. The Administration's Wild Lands order acts contrary to this 
policy and threatens jobs in Colorado's Third Congressional District.
    It is imperative that the Department of the Interior prioritize 
domestic energy production and concentrate on job grow in Colorado and 
throughout the country. Again, Chairman Hastings, thank you for holding 
today's hearing.

                                 <all>

</pre></body></html>
